<html>
<title> - PROMOTING TRAVEL TO AMERICA: AN EXAMINATION OF ECONOMIC AND SECURITY CONCERNS</title>
<body><pre>[Senate Hearing 110-1065]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 110-1065
 
                      PROMOTING TRAVEL TO AMERICA: 
                       AN EXAMINATION OF ECONOMIC 
                     AND SECURITY CONCERNS--PART II 

=======================================================================

                                HEARING

                               before the

        SUBCOMMITTEE ON INTERSTATE COMMERCE, TRADE, AND TOURISM

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 20, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

39-695 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 



















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas                 JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
              Margaret Spring, Democratic General Counsel
   Christine D. Kurth, Republican Staff Director, and General Counsel
   Kenneth R. Nahigian, Republican Deputy Staff Director, and Chief 
                                Counsel
                                 ------                                

        SUBCOMMITTEE ON INTERSTATE COMMERCE, TRADE, AND TOURISM

BYRON L. DORGAN, North Dakota,       JIM DeMINT, South Carolina, 
    Chairman                             Ranking
JOHN D. ROCKEFELLER IV, West         JOHN McCAIN, Arizona
    Virginia                         OLYMPIA J. SNOWE, Maine
JOHN F. KERRY, Massachusetts         GORDON H. SMITH, Oregon
BARBARA BOXER, California            JOHN ENSIGN, Nevada
MARIA CANTWELL, Washington           JOHN E. SUNUNU, New Hampshire
MARK PRYOR, Arkansas
CLAIRE McCASKILL, Missouri


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 20, 2007...................................     1
Statement of Senator DeMint......................................    34
Statement of Senator Dorgan......................................     1
    Prepared statement...........................................     2
Statement of Senator Inouye......................................     3
    Prepared statement...........................................     3

                               Witnesses

Borlaug, David, President, Lewis & Clark Fort Mandan Foundation..    43
    Prepared statement...........................................    45
Edson, Stephen A., Deputy Assistant Secretary for Visa Services, 
  U.S. Department of State.......................................    22
    Prepared statement...........................................    23
Estrada, Jamie P., Deputy Assistant Secretary for Manufacturing, 
  International Trade Administration, U.S. Department of Commerce     5
    Prepared statement...........................................     6
Jacksta, Robert M., Executive Director, Traveler Security and 
  Facilitation, Office of Field Operations, CBP, DHS.............    12
    Prepared statement...........................................    14
Johnson, Rex D., President and CEO, Hawaii Tourism Authority, 
  Hawaii Convention Center.......................................    35
    Prepared statement...........................................    36
Martinez-Fonts, Jr., Alfonso, Assistant Secretary, Private Sector 
  Office, DHS....................................................    18
    Prepared statement...........................................    20
Peck, Ron, President and COO, Alaska Travel Industry Association.    46
    Prepared statement...........................................    48
Prosser, Chad, Director, South Carolina Department of Parks, 
  Recreation, and Tourism........................................    38
    Prepared statement...........................................    40

                                Appendix

Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    David Borlaug................................................    64
    Stephen A. Edson.............................................    61
    Jamie P. Estrada.............................................    55
    Robert M. Jacksta............................................    60
    Rex D. Johnson...............................................    63
    Alfonso Martinez-Fonts, Jr...................................    60
    Ron Peck.....................................................    63
    Chad Prosser.................................................    64


                      PROMOTING TRAVEL TO AMERICA:
                       AN EXAMINATION OF ECONOMIC
                     AND SECURITY CONCERNS--PART II

                              ----------                              


                        TUESDAY, MARCH 20, 2007

                               U.S. Senate,
   Subcommittee on Interstate Commerce, Trade, and 
                                           Tourism,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:02 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Byron L. 
Dorgan, Chairman of the Subcommittee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. We'll call the hearing to order this 
morning.
    This is the Subcommittee of the Commerce Committee, the 
Subcommittee on Interstate Commerce, Trade, and Tourism. And 
I'm joined by my colleague, Senator Inouye, the Chairman of the 
full Committee this morning.
    I want to make a very brief statement then call on Senator 
Inouye to make a statement, after which we will hear from our 
first set of witnesses.
    Today's hearing is the second in a series of travel 
promotion hearings designed to examine how our country can 
remain competitive internationally in the travel industry. 
Generating about 8.3 million jobs, the U.S. travel industry 
both serves as a major employer and constitutes an 
indispensable part of our economy. According to the Department 
of Commerce, in the year 2006, international tourism spending 
in the United States was comprised of $107 billion.
    Despite these impressive numbers, the country has seen a 
decrease in its market share of international travelers. In 
order to preserve this sector of our economy and expand it, we 
must work with expediency to reverse the decline.
    In the first travel promotion hearing, we heard from the 
private sector of the problems that the travel and tourism 
industry faces today. The Discover America Partnership pointed 
to a complex visa application process, an intimidating, often 
bewildering experience for travelers at ports of entry, a 
problem with our reputation around the world, as some factors 
that undermine international travelers desire or ability to 
visit our great country.
    In addition, the Partnership advocated for the creation of 
a nationally -coordinated travel promotion initiative. One that 
would both highlight destinations throughout our country and 
inform international travelers about how best to navigate the 
U.S. visa and entry process.
    While in the past few years the Department of Commerce has 
worked on limited promotions, particularly to Japan and the 
United Kingdom, the Department has lacked the resources to 
conduct a comprehensive and coordinated effort.
    I believe that a more aggressive approach is warranted. 
Since September 11, 2001, the United States' market share of 
international travel has decreased. The Commerce Department, 
working in concert with industry experts, I believe, should 
work to rebuild America's place in the travel market.
    In doing so, we need not compromise our national security. 
We can strengthen security at our borders without closing our 
doors to friendly visitors.
    In addition, creating a more welcoming climate for new 
arrivals would be a boon to our country's diplomacy. To come to 
America and to visit America is to understand more about our 
country and to feel good about what this country represents. 
Travelers overwhelmingly leave this country with a better 
impression of America and its people. They take this goodwill 
back to their native lands and raise the esteem of the United 
States overseas.
    In fairness to our Federal agencies, the Departments of 
State and Homeland Security have not only recognized the need 
to improve the entry process via technological efficiency, but 
they've also created a framework for facilitating international 
tourism while maintaining national security. And they have 
begun to implement the goals established in the Rice-Chertoff 
Joint Vision in a thoughtful way, but I believe more can and 
more should be done.
    Today, we'll hear testimony from two panels of witnesses in 
considering how to attract more international visitors without 
jeopardizing our country's security or safety. The first panel 
will consist of Government representatives from the Departments 
of Commerce, State, and Homeland Security. The second panel 
will consist of industry leaders from across the country. We 
will hear about their respective experiences in attracting 
visitors to their states and about how the Federal Government 
can better serve them.
    Based on the testimony we hear today and what we have heard 
in the first hearing, I plan to introduce legislation, with my 
colleague Senator Inouye and my colleague Senator Stevens, and 
others, that will reinvigorate America's tourism industry. So 
let me thank all of the witnesses for being here. Let me call 
on my colleague, Senator Inouye, who comes from a state that 
knows a little something about tourism, the State of Hawaii.
    [The prepared statement of Senator Dorgan follows:]

              Prepared Statement of Hon. Byron L. Dorgan, 
                     U.S. Senator from North Dakota
    Today's hearing is the second in a series of travel promotion 
hearings designed to examine how the United States can remain 
competitive internationally in the travel industry. Generating 
approximately 8.3 million jobs, the U.S. travel industry both serves as 
a major employer and constitutes an indispensable part of our economy. 
According to the Department of Commerce in 2006, international tourism 
spending in the United States comprised $107.4 billion. Despite these 
seemingly impressive numbers, the country has seen a decrease in market 
share of international travelers. In order to preserve this vital 
sector of our economy, we must work with expediency to reverse the 
decline.
    In the first travel promotions hearing, we heard from the private 
sector of the problems that the travel and tourism industry face today. 
The Discover America Partnership pointed to a complex visa application 
process, an intimidating and often bewildering experience for travelers 
at ports of entry, and a tarnished reputation around the world as 
factors that undermine international travelers' desire or ability to 
visit our great country. In addition, the Partnership advocated for the 
creation of a nationally-coordinated travel promotion initiative. An 
initiative that would both highlight destinations throughout America 
and inform international travelers about how best to navigate the U.S. 
visa and entry process.
    While in the past few years, the Commerce Department worked on 
limited promotions to Japan and the United Kingdom, the Department has 
lacked the resources to conduct a comprehensive and coordinated effort. 
I believe that a more aggressive approach is warranted. Since September 
11, the United States' market share of international travelers has 
significantly decreased. The Commerce Department working in concert 
with industry experts should work to rebuild America's place in the 
travel market.
    In doing so, we need not compromise our national security. We can 
strengthen security at our borders without closing our doors to 
friendly travelers. In addition, creating a more welcoming climate for 
new arrivals would be a boon to diplomacy. Travelers overwhelmingly 
leave this country with a better impression of America and its people. 
They take this goodwill back to their native land and raise the esteem 
of the United States overseas.
    In fairness to our Federal agencies, the Department of State and 
the Department of Homeland Security have not only recognized the need 
to improve the entry process via technological efficiency, but they 
have also created a framework for facilitating international tourism 
while maintaining national security. They have begun to implement the 
goals established in the Rice-Chertoff Joint Vision in a thoughtful 
way, but I believe that more work can be done.
    Today we will hear testimony from two panels of witnesses in 
considering how to attract more international visitors without 
jeopardizing our safety. The first panel consists of government 
representatives from the Departments of Commerce, State, and Homeland 
Security. The second panel consists of industry leaders from Hawaii, 
North Dakota, Alaska, and South Carolina. We will hear about their 
respective experiences in attracting visitors to their states and about 
how the Federal Government could better serve them.
    Based on the testimony we hear today and what we heard in the first 
hearing, I plan to introduce legislation to reinvigorate America's 
tourism industry.

    Senator Inouye?

              STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. I thank you very much, Mr. Chairman. I'd like 
to have my statement made part of the record.
    Senator Dorgan. Without objection.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Encouraging international travelers to visit the United States is 
both economically and diplomatically beneficial to our country. As we 
know from experience in Hawaii, attracting visitors to the United 
States requires a great deal of investment in marketing and promotion.
    Travel and tourism is Hawaii's number one industry and, the state 
actively markets to residents in countries around the world, including 
Japan, Australia, the United Kingdom, and Germany.
    Most states, however, do not find it economical to devote large 
resources to international advertising. That is unfortunate, given the 
many natural and cultural treasures this country has to share. 
Travelers around the world would be willing and eager to spend more 
time visiting America, if they knew what we have to offer.
    In 2006, international receipts for travel-related tourism spending 
reached $107.4 billion. Travel and tourism exports accounted for 7 
percent of all U.S. exports and 26 percent of services exports last 
year. The travel industry is a driving force for the U.S. economy and 
its potential has barely been tapped.
    As an added benefit, tourism greatly advances international 
goodwill. Studies have shown that, after visiting the United States and 
interacting with Americans, 74 percent of visitors have a more 
favorable opinion of our country.
    This does not surprise me because, with all due respect to the 
State Department, Americans in their natural environment are among the 
best diplomats in the world.
    In recent years, however, the international reputation of the 
United States has suffered. America became a less desirable destination 
for international travelers as a result of the September 11 terrorist 
attacks.
    In addition, in the wake of the attack, the Administration 
tightened visa application and border entry procedures. Addressing 
national security is of paramount importance and we must protect our 
Nation from terrorists. But some of the changes had the unintended 
consequence of deterring legitimate international travelers from coming 
to America.
    I was pleased that Secretaries Rice and Chertoff initiated the 
Rice-Chertoff Joint Vision in January 2006 to establish new procedures 
designed to facilitate travel without compromising security.
    Despite good efforts of both agencies, many in the travel and 
tourism industry continue to express concerns about the efficiency of 
the visa application process and the perception that the U.S. entry 
process is unnecessarily antagonistic.
    I am interested in hearing from the witnesses on the status of 
implementing the Joint Vision and their thoughts on the recommendations 
of groups such as the Discover America Partnership and the U.S. Travel 
and Tourism Advisory Board.

    The Chairman. However, I'd like to agree with you that 
encouraging international travelers to visit the United States 
is both economically and diplomatically beneficial to our 
Nation. And, it requires a great deal of investment in 
marketing and promotion. It doesn't come cheap. We've learned 
that in Hawaii.
    And, as you've indicated, 74 percent of those who visit us, 
leave America happy and with a positive reason to be here. 
They'd like to come back again. However, since 9/11 because of 
the requirements of security and such, many visitors have been 
reluctant to return and we have a challenge ahead of us. And, I 
can assure you that I'm on your side, Senator.
    And I'd like to welcome all the witnesses. Thank you very 
much.
    Senator Dorgan. Senator Inouye, thank you, thank you very 
much. And thanks for the contribution that the beautiful State 
of Hawaii provides for our interest in attracting additional 
visitors. It's a----
    The Chairman. Please come to us. We need your money.
    [Laughter.]
    Senator Dorgan. It is truly a paradise.
    Our first panel today is Mr. Jamie Estrada, the Deputy 
Assistant Secretary for Manufacturing at the U.S. Department of 
Commerce. He'll be followed by Mr. Robert Jacksta, Executive 
Director, Traveler Security and Facilitation, U.S. Customs and 
Border Protection at the Homeland Security Department. Mr. Al 
Martinez-Fonts, Assistant Secretary of the Private Sector 
Office of the U.S. Department of Homeland Security. Mr. Stephen 
Edson, Deputy Assistant Secretary for Visa Services, Department 
of State.
    We appreciate all of you being here today. I do want to 
point out that there has been a series of votes scheduled since 
we scheduled this hearing. The votes will begin at 10, excuse 
me, at 11:30, so my hope is if we can complete this hearing by 
about 11:45, we'll be able to get over and begin the series of 
votes. There are three votes. Otherwise it would require a 
rather lengthy recess.
    But, let me thank all four of you for representing the 
Federal agencies that have a role in this issue of 
international tourism.
    Let us start with you, Mr. Estrada. Let me say that the 
entire statements of all of you will be made a part of the 
permanent record and we would ask that you summarize.

        STATEMENT OF JAMIE P. ESTRADA, DEPUTY ASSISTANT 
       SECRETARY FOR MANUFACTURING, INTERNATIONAL TRADE 
          ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE

    Mr. Estrada. Thank you. Chairman Dorgan and Chairman 
Inouye, and distinguished members, thank you for the 
opportunity to provide you with an update on the United States 
travel and tourism industry and for your continued support of 
this critical sector of our economy.
    Today, the most important message I can communicate is 
this--that key economic indicators show that the industry has 
recovered from the 9/11 terrorist attacks. The travel and 
tourism industry in the United States is strong and continues 
to be one of the most lucrative for our economy. And the United 
States remains a top market, the top market for travel 
receipts. International visitors in the United States set a new 
record level of spending in 2006.
    First, allow me to give you the good news before discussing 
some of our existing challenges. In 2006, the industry 
generated more than $1 trillion of sales, representing 2.6 
percent of total GDP. It contributed to our positive balance of 
trade in services. In fact, we posted our 18th consecutive 
annual trade surplus in travel. Also, in 2006, the industry 
exported more than $107 billion in travel and tourism-related 
goods and services, which is 5 percent higher than the record 
set in the year 2000, and the chart here reflects that.
    Earlier this month, Secretary Gutierrez announced that 51.1 
million international visitors traveled to the United States in 
2006, with 9 countries breaking records from previous years. 
This represents an increase of over 4 percent over 2005, and 
next year looks even better. In 2007, international visitor 
levels are projected to surpass the 2000 record, reaching an 
estimated 52.9 million visitors. This clearly demonstrates the 
industry's resiliency as we move forward.
    Although the industry is making significant progress, the 
United States still faces many complex challenges. And through 
extensive cooperation with our counterparts in government and 
the private sector, we are addressing those challenges. We 
understand that government and the private sector must find the 
right balance of security, while creating a welcoming 
environment for visitors to the U.S.
    The events of 9/11 demonstrated that our Nation must adopt 
new travel security documents and screening procedures. This is 
no small undertaking. And, I would like to compliment the work 
of the Departments of Homeland Security and State on this 
effort. We have worked with them to provide industry 
perspectives in the development and implementation of many of 
these measures.
    To hear from the industry executives first hand, Secretary 
Gutierrez turned to the Travel and Tourism Advisory Board, a 
private sector advisory board consisting of a cross section of 
the industry. He asked the Board to recommend how the 
government can better support the industry's competitiveness, 
in a post-9/11 world. These recommendations have been referred 
to the Tourism Policy Council, which is made up of 17 Federal 
agencies engaged in travel and tourism policies. This effort 
highlights the focus of both government and industry, in 
providing an enjoyable and welcoming international travel 
experience.
    A key role for the Department of Commerce is to identify 
export opportunities and eliminate barriers to entry into those 
markets. We do that through our Office of Travel and Tourism 
Industries and our Commercial Service, with nearly 200 offices 
worldwide. Specifically, Commercial Service officers work to 
match U.S. suppliers with international buyers. A perfect 
example of this, is our successful work with the Las Vegas 
Convention and Visitors Authority, which resulted in 3,000 more 
Brazilian and Chinese visitors to the Las Vegas area generating 
over $4 million in additional revenue.
    Turning toward the future, the industry outlook is very 
promising. As I mentioned earlier, the Department forecasts a 
record number of travelers will come in 2007, marking a full 
recovery since the attacks of 9/11. In addition, we forecast a 
21 percent increase in travelers over the next 5 years, 
reaching 61.6 million visitors by 2011. Overseas markets will 
significantly contribute to this projected growth, especially 
from South America and Asia. We feel confident that the travel 
and tourism sectors are on track to deliver increasingly strong 
performances for years to come.
    In conclusion, the travel and tourism industry in the 
United States leads the world in market share of global travel 
revenues, and is well on the way to enjoying record levels of 
visitors. We believe that the appropriate role for government 
is to create a positive business climate by promoting 
supportive policy within our own government, while also working 
with other governments to remove market impediments and build 
bridges to new markets. We are working with our interagency 
colleagues, through the Tourism Policy Council, to address 
industry concerns and recommendations.
    In addition, we are hopeful that the United States and the 
European Union can reach an ``Open Skies'' agreement, which 
could generate significant opportunities, not only for travel 
and tourism, but for other industries as well. With these and 
similar efforts, we will create the most competitive business 
climate for the private sector so that it may continue to reach 
record highs.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Estrada follows:]

Prepared Statement of Jamie P. Estrada, Deputy Assistant Secretary for 
 Manufacturing, International Trade Admnistration, U.S. Department of 
                                Commerce
    Chairman Dorgan, Ranking Member DeMint, and distinguished members 
of the Subcommittee, thank you for the invitation to appear today to 
update you on the status of the United States travel and tourism 
industry. I would also like to take this opportunity to thank you for 
your support of this important sector of our economy.
    The travel and tourism industry in the United States is strong and 
continues to be the most lucrative travel and tourism industry in the 
world. I am pleased to report that international visitors to the United 
States set a new record level of spending in 2006. While we are 
enjoying record levels of revenues, it is also noteworthy that sectors 
such as hotels and lodging and restaurants are achieving new levels of 
profitability.
    Although the industry is making significant progress, the United 
States faces its share of challenges due to the impact of 9/11, 
uncertainties in the airline industry, and increased competition from 
emerging destinations. We are working to address these issues 
collaboratively with our colleagues at the Departments of State and 
Homeland Security and with the private sector.
Tourism and the U.S. Economy
    I would like to begin by sharing with you the good news before 
discussing existing challenges.
    The travel and tourism industry is a major contributor to our 
Nation's gross domestic product (GDP). Travel and tourism represent 2.6 
percent of GDP and generated more than $1 trillion of sales in 2006 
alone.\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Commerce, Travel and Tourism Satellite 
Accounts.
---------------------------------------------------------------------------
    The travel and tourism industry is one of America's largest 
employers, with more than 8 million Americans employed. It is important 
to highlight that over 90 percent of the U.S. travel and tourism 
industry is classified as small and medium-sized businesses.\2\
---------------------------------------------------------------------------
    \2\ U.S. Chamber of Commerce.
---------------------------------------------------------------------------
    The travel and tourism sector has been a substantial contributor to 
our positive balance of trade in services. The United States has 
enjoyed a continuous surplus in travel since 1989. A surplus occurs 
when international visitors spend more in this country than we do when 
traveling abroad. In 2006, the United States exported more than $107 
billion in travel and tourism-related goods and services and posted its 
18th consecutive annual trade surplus in travel. In fact, travel and 
tourism generate over one-fourth of total U.S. services exports, 
according to the Bureau of Economic Analysis.
    Key sector indicators are largely positive. According to Price 
Waterhouse Coopers, in 2006 lodging industry profit levels have 
returned to the previous record level of $22.5 billion. In addition, 
data from the Bureau of Economic Analysis indicate total restaurant 
sales were less affected by 9/11 relative to other travel and tourism 
sectors and have steadily increased 15 percent in real terms between 
2000 and 2005.
Recent Trends and Challenges
    Following the events of September 11, 2001, U.S. travel and tourism 
receipts and international visitor levels both sharply declined. 
Receipts declined roughly 22 percent from the peak in 2000 to a trough 
in 2003. As the accompanying chart indicates, travel and tourism 
receipts in 2006, at $107.8 billion, are 5 percent over the record set 
in 2000. At the same time, our 2007 international visitor levels are 
projected to surpass the 2000 record, reaching 52.9 million. This 
clearly demonstrates the industry's resiliency as we move forward.
    The United States is first in the world with respect to travel 
receipts, with nearly double the value of receipts generated by France, 
even though they lead the world in visitation. While receipts provide a 
critical measure to gauge the industry's strength, it is true that 
global market share of visitors to the United States has fallen since 
its peak in 1992. However, global market share of visitors alone does 
not give an accurate measure of performance. In fact, eight out of the 
world's top ten markets have lost market share of global visitors. This 
is due to the reality of considerably more competitors in the global 
arena for travelers today than in 1992. In addition, much of global 
growth in visitors is due to short trips. For example, while France and 
Spain are the world's number one and two markets for numbers of 
international visitors, much of their leading positions are 
attributable to intra-regional travel (i.e., people from Spain visiting 
France and vice versa). Therefore, concerns about declining market 
share should be put in perspective. In summary, multiple yardsticks are 
necessary to accurately assess the performance of travel and tourism as 
an export value.
    While the U.S. travel and tourism industry is strong and growing, 
in recent years it has had to wrestle with various challenges in a 
post-9/11 environment.
    I would now like to focus on how we are responding.
    The development of new security processes has challenged both 
government and the private sector to achieve the right balance of 
security while continuing to welcome visitors and facilitate their 
entry into the United States. Secretary Gutierrez requested that the 
Department of Commerce's Travel and Tourism Advisory Board (TTAB) make 
recommendations on how the Federal Government can support the travel 
and tourism industry's efforts to compete for international travelers. 
The TTAB is a private sector advisory board comprised of 15 industry 
leaders, representing various sectors of the industry. These 
recommendations have been referred to the Tourism Policy Council (TPC), 
which is led by the Secretary of Commerce and made up of 17 Federal 
agencies engaged in travel and tourism issues and policies. The TPC is 
currently engaged in a review of these recommendations and member 
agencies are actively moving forward on implementing a number of them. 
I am pleased to report that many of the issues covered by the TTAB's 
recommendations were already being addressed by the Departments of 
Homeland Security and State. We believe that this cooperation indicates 
that government and industry are largely in agreement on the way to 
move forward.
Safety and Security
    At the Department of Commerce, we believe that the safety and 
security of Americans and those who visit our Nation are paramount. The 
events of 9/11 demonstrated that our Nation must migrate to a new 
generation of travel security processes in order to protect our 
citizens and guests. This requires the development of new and secure 
travel documents and ways of matching individual travelers to those 
documents in order to verify entry and departure, as well as screening 
procedures to ensure that air travel to and from the United States is 
safe.
    This is no small undertaking, and requires the development of new 
technologies and new work processes and collaboration and communication 
with other nations, the travel industry and consumers. Government and 
industry share a vision that upon completion of this effort our system 
will in fact result in the United States being one of the most 
accessible and safest nations for people to visit. Such a system is 
good for our economy, good for our national security, and good for our 
public diplomacy.
    We have worked with the Departments of Homeland Security and State 
to provide industry perspectives in the development and implementation 
of some of these measures and see progress being made toward this goal. 
Allow me to briefly review a few examples in this regard.
    The Departments of State and Homeland Security are collaborating 
with the travel and tourism industry and the Department of Commerce on 
Model Ports of entry projects at the Houston International Airport and 
the Washington Dulles International Airport. The goal of this 
initiative is to ensure a more welcoming environment for international 
visitors through improved entry procedures and passenger assistance 
measures.
    Another challenge is implementation of the next phase of the 
Western Hemisphere Travel Initiative (WHTI), which requires that all 
tourist travelers, including U.S. citizens, traveling to and from 
Canada, Mexico, the Caribbean, and Bermuda have a passport, or other 
acceptable documents, to enter or re-enter the United States by land or 
sea. The Administration will make every effort to ensure that 
implementation and communication of the land and sea requirements will 
be as successful in facilitating travel into the United States as were 
the implementation and communication of the requirements for travel by 
air. Implementation of the requirements for air has not inhibited 
travel to the United States from within the Western Hemisphere.
    We will continue to work with our colleagues at the Departments of 
Homeland Security and State to facilitate input from business and 
industry, provide statistical analysis, and assist the efforts of those 
agencies to communicate the new requirements to industry and the 
traveling public.
Visas
    The United States welcomes legitimate travelers from all regions. 
More than 68 percent of our international travelers not from Mexico and 
Canada come to the United States from Visa Waiver Program (VWP) 
countries and 60 percent of all our receipts (exports) come from VWP 
countries.\3\ The VWP enables nationals of 27 countries to travel to 
the United States for tourism or business for stays of 90 days or less 
without requiring them to obtain a visa, and is an important program 
for the health of the U.S. travel and tourism industry.
---------------------------------------------------------------------------
    \3\ U.S. Department of Commerce, Office of Travel and Tourism 
Industries.
---------------------------------------------------------------------------
    For citizens of non-VWP countries, a visa is necessary for entry to 
the United States. We must ensure that our visa policy excludes those 
who would do our country harm, but at the same time, the policy should 
ensure that to the extent possible, legitimate travelers are permitted 
entry. In the transition to the next generation of travel security 
processes, we are challenged to meet the demand for visas as quickly as 
both the government and the private sector would like. The Department 
of State has taken a number of steps to improve the transparency, 
efficiency and predictability of the visa process. These efforts have 
included adding new consular positions, investing in automating 
outdated systems, and finding new ways to streamline the visa process 
while maintaining all necessary security measures.
    In November 2006, President Bush announced his intention to work 
with Congress to reform the VWP. It is in our interest to ensure that 
countries across the globe join us in implementing travel security 
processes that ensure the safety and security of travelers to the 
United States and protect our national security interests. Reforming 
the VWP and extending it to countries that demonstrate a commitment to 
security will facilitate travel to our country while maintaining the 
safety and security of our people.
Tourism Export Expansion
    The Department of Commerce identifies U.S. export opportunities and 
eliminates barriers to entry into those markets. The Department is 
currently working to identify key travel and tourism markets and 
facilitate access to markets with significant growth potential, such as 
China and India.
Travel and Tourism Promotion
U.S. Commercial Service
    Staff in the Department's Commercial Service, who work in 108 
offices in the United States and in more than 80 countries worldwide, 
helps to increase U.S. travel exports. This effort is effectively 
delivered through the Commercial Service's Travel and Tourism Team, 
which has a total of 125 (74 international and 51 domestic) travel and 
tourism industry sector specialists. The Team also has partnerships 
with other U.S. Government agencies such as the Department of State, 
the National Park Service, and the Department of Homeland Security.
    In some countries, the Team coordinates with the local Visit USA 
Committee. These Committees are primarily comprised of local travel 
agencies, tour operators, marketing companies and representatives of 
U.S. companies selling travel to the United States (e.g., airlines, 
destinations, hoteliers, attractions, etc.). The Team is instrumental 
in providing a variety of market entry services to the Visit USA 
Committees, including seminars, trade show support, and opportunities 
for the travel and tourism industry to gain exposure with local media.
    The Commercial Service officers work to match U.S. suppliers with 
international buyers. They do this by assisting U.S. businesses with 
trade shows (over 200 in the past 3 years), travel missions, 
familiarization tours, and other marketing venues to sell U.S. travel 
products and services. In 2006, the Team participated in 79 travel and 
tourism events. Since 2005, the Commercial Service has posted over 735 
export successes, accounting for over $61 million in the travel and 
tourism sector. As an example, the Las Vegas Convention and Visitors 
Authority (LVCVA) worked with Commercial Service officers on trade 
missions to Brazil and China to sell Las Vegas as a destination for 
trade shows. The LVCVA reports that since the trade missions an 
additional 3,000 Brazilian and Chinese visitors have visited the Las 
Vegas area, equating to approximately $4,515,000 of revenue.\4\
---------------------------------------------------------------------------
    \4\ Las Vegas Convention and Visitors Authority.
---------------------------------------------------------------------------
Department of Commerce International Tourism Promotion Program
    In 2005, Congress provided the Department of Commerce with $9.6 
million to conduct an international tourism promotion campaign to 
market the United States as a travel destination. The program was 
implemented for a second year in the United Kingdom. In addition, a 
pilot program was implemented in Japan in the Fall of 2006. A third-
party research study by Longwoods International indicated that the 
initial campaign in the United Kingdom returned $117 in spending on 
travel to and within the U.S. for every $1 of advertising expenditures. 
Japan is on track to show positive results as well.
    Congress further allocated $3.948 million for international tourism 
promotion. The TTAB recommended that these funds be used to provide a 
grant or cooperative agreement to develop a web portal for the Nation's 
top five source markets. In March 2007, a $3.9 million cooperative 
agreement was awarded to the Travel Industry Association for this 
purpose.
    The promotion campaigns in the United Kingdom and Japan demonstrate 
that marketing the United States as a travel destination can be 
effective. We encourage the U.S. travel and tourism industry to 
consider the results of these programs as it makes its own marketing 
plans.
Facilitation of Chinese Group Leisure Travel to the United States
    Trends reveal that there is significant potential for growth of 
Chinese tourism to the United States. In fact, Chinese visitation to 
the United States increased 19 percent last year compared to 2005. 
However, Chinese policies restrict group leisure travel to 
destinations, such as the United States, that do not have a bilateral 
agreement with China. Traditional agreements of this kind are not in 
keeping with U.S. laws or open market principles. We are working 
through the Strategic Economic Dialogue and through the U.S.-China 
Joint Commission on Commerce and Trade to open this market through a 
commercial agreement tailored to the United States which would comply 
with all of our laws. The Department of State, through the TourTrack 
program, has demonstrated how the U.S. might facilitate visas for 
legitimate travelers who wish to engage in group leisure travel to the 
United States, should the Chinese government eliminate its market 
restrictions on this type of travel.
Brazil Dialogue
    The Department of Commerce is engaged in a series of commercial 
dialogues with Brazil, including discussions on travel and tourism. 
Brazil is becoming an outbound travel market again, due to the 
increased strength of its economy. We are working to support the 
Departments of State and Homeland Security in exploring such possible 
policy changes as extending visa length from 5 years to 10 years on a 
reciprocal basis. Such an agreement would ease pressures on visa 
issuance, reduce costs for individuals and families to come to the 
United States, and facilitate market access.
Air Linkages
    Air service is key to tourism growth. The liberalization of air 
services between countries generates significant additional 
opportunities for airlines, consumers, travel and tourism, and other 
industries. To date, the U.S. Government has initiated and completed 
over 70 Open Skies bilateral agreements with foreign countries. In 
addition, more liberalized (but not yet ``Open Skies'' per se) 
agreements are in place with China and Japan. An Open Skies agreement 
with the EU was initialed on March 2, 2007. Under the agreement, key 
gains for the United States will include greater access to London's 
Heathrow airport, cargo rights in the UK, and Open Skies treatment for 
new EU Member States. We are hopeful that a final agreement can be 
achieved.
Forecast
    Now let us look toward the future--what we believe will be a bright 
future for the U.S. travel and tourism industry. The Department of 
Commerce forecasts a record number of travelers will come to the United 
States in 2007. This will mark a full recovery since the attacks of 9/
11, surpassing the previous peak in 2000. In addition, we forecast a 21 
percent increase in travelers over the next 5 years, reaching 61.6 
million visitors by 2011. Overseas markets, especially South America 
and Asia, will significantly contribute to this projected growth. Chart 
3 includes 2011 projections for the top ten markets. We feel confident 
that the travel and tourism sectors are on track to deliver 
increasingly strong performances for years to come.
Conclusion
    The travel and tourism industry in the United States leads the 
world in market share of global travel revenues and is well on its way 
to enjoying record levels of visitors. We are on track for full 
recovery since 9/11 and project continued growth in international 
travel for the next 5 years. Since the last quarter in 2003, both 
arrivals and receipts have been on the rise.
    We believe that the appropriate role for government is to create a 
positive business climate by promoting supportive policy within our own 
government and working with other governments to remove market 
impediments and build bridges to new markets. We are working with our 
colleagues at the Department of Homeland Security and the Department of 
State to evaluate and respond to industry concerns and evaluate 
industry recommendations. I am pleased to report that the majority of 
industry concerns have previously been identified and are being 
addressed, largely through the Rice-Chertoff Joint Vision: Secure 
Borders and Open Doors. This document, issued in January 2006, outlines 
next steps on issues such as Model Ports of Entry, Improved Visa 
Processing, and Improved Exit Systems.
    At the Department of Commerce, we are working to open new markets 
and improve market access in countries like China and Brazil. We are 
reviewing additional growth markets to identify and remove barriers to 
entry. In this way, we will create the most competitive business 
climate for the private sector to continue to reach record highs.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Senator Dorgan. Mr. Estrada, thank you very much. We 
appreciate your testimony.
    And, next, we'll hear from Mr. Robert Jacksta, who is with 
the Department of Homeland Security, more specifically, the 
U.S. Customs and Border Protection. Mr. Jacksta, welcome. Your 
entire statement will be made a part of the record.

 STATEMENT OF ROBERT M. JACKSTA, EXECUTIVE DIRECTOR, TRAVELER 
SECURITY AND FACILITATION, OFFICE OF FIELD OPERATIONS, CBP, DHS

    Mr. Jacksta. Good morning, Chairman Dorgan and Chairman 
Inouye, and distinguished members.
    I am pleased to be here today to discuss how the Department 
of Homeland Security and specifically, U.S. Customs and Border 
Protection, CBP, is moving forward on programs that will 
facilitate travel, but still provide the level of security 
required to protect the United States.
    As you know, CBP's number one priority is to prevent 
terrorist and weapons of mass effect from entering the United 
States, at the same time ensuring that legitimate trade and 
travel are facilitated through our Nation's ports of entry 
(POE).
    We have over 7,000 miles of shared borders with the 
Canadians and the Mexicans. We have over 326 ports of entry 
throughout the United States. And each day, CBP officers must 
inspect more than 1.2 million travelers coming across our land, 
air, and sea POEs. Last year alone, CBP welcomed over 423 
million travelers to our Nation. During Fiscal Year 2006, CBP 
processed a record 87 million passengers arriving from 
international locations by air, the second consecutive fiscal 
year the number of such passengers has exceeded pre-9/11 
numbers. And, our initial look at 2007 indicates that it 
continues to grow.
    As part of our layered approach to border security, CBP has 
a number of initiatives to ensure security, while facilitating 
low-risk travelers. I'd like to talk about some of those 
programs.
    One of the most important programs we have is the ``Trusted 
Traveler Program,'' which allows us to facilitate the crossing 
of low-risk, frequent travelers, and commercial truck drivers 
at our land border locations as well as some of our pre-
clearance air locations in Canada.
    We have the SENTRI program on the southern border, which 
allows these travelers to come through. We have the NEXUS 
program, which is a joint effort with the Canadians up on the 
northern border, and at our pre-clearance locations in Canada. 
Today, we have close to 325,000 international travelers using 
our Trusted Traveler Programs.
    We also have the FAST program, which is a program that's in 
place for commercial truckers. This is also an extremely 
important effort to ensure the facilitation of trade across our 
land border locations.
    To enhance border security and to increase facilitation of 
legitimate travelers, the standardization of travel documents 
is a critical step for DHS and Department of State (DOS). 
Currently, thousands of different documents can be used by a 
traveler on a daily basis, and our officers have to be familiar 
with them. In Fiscal Year 2006, we seized over 209,000 
individuals crossing our borders with fraudulent documents, or 
some type of fraudulent claim to citizenship that the officer 
questioned. It is an extremely important issue for us and we 
need to be vigilant in that area.
    Senator Dorgan. What was that number, again?
    Mr. Jacksta. That number was 209,000 travelers.
    The Western Hemisphere Travel Initiative (WHTI) is a joint 
effort by DHS and the DOS to address security vulnerabilities 
and increase traveler facilitation. The initial phase of WHTI 
went into effect January 23, 2007, obligating all air 
travelers, regardless of age, to present a passport or other 
acceptable document. Compliance rates, so far, are over 99 
percent. As early as January 2008, most U.S. citizens and 
Canadians traveling in the Western Hemisphere by land or sea 
will be required to present a valid passport or other WHTI-
compliant documents, as determined by DHS.
    As part of the Rice-Chertoff Initiative announced in 
January 2006, and in partnership with the private sector and 
state and local governments, DHS has introduced a pilot model 
airport program to ensure a more welcoming environment for 
foreign visitors. The pilot project is at the Houston and 
Dulles Airports and will feature customized video messages for 
the public with practical information about the entry process. 
Directional signage and banners to guide travelers through the 
entry process have already been installed at these locations. 
New brochures explaining the inspection process to the public 
are being printed and will be made available in April 2007. We 
will continue our effort to work with the travel industry, the 
airlines, and the airport authorities, to ensure that we have a 
better facilitation process for travelers arriving in the 
United States.
    One of the most important things that CBP puts a priority 
on is the professionalism of our officers. CBP officers are 
committed to the highest standards of professional conduct. Our 
professionalism training starts at our training academy and 
continues throughout the CBP officer's career through classroom 
training, virtual learning lesson plans, and daily musters. We 
consider this an important issue that we emphasize to our 
officers and supervisors to ensure that when people arrive at 
the United States, they are welcomed into the United States. We 
will continue to work on these programs to enhance security, 
but at the same time providing facilitation.
    In summary, Mr. Chairman, I have outlined a broad array of 
initiatives today that, with your assistance, will help CBP 
continue to protect America from terrorist threats, while 
fulfilling our other important traditional missions. Thank you, 
again, for this opportunity to testify. I will be happy to 
answer any questions if you have them.
    [The prepared statement of Mr. Jacksta follows:]

 Prepared Statement of Robert M. Jacksta, Executive Director, Traveler 
    Security and Facilitation, Office of Field Operations, CBP, DHS
    Good morning Chairman Dorgan, Senator DeMint, and distinguished 
members of the Subcommittee. I am pleased to be here today to discuss 
how the Department of Homeland Security (DHS) is moving forward on 
programs that will facilitate travel but still provide the level of 
security required to protect the United States. This is an enormous 
challenge. We have over 7,000 miles of shared borders with Canada and 
Mexico and 326 official ports of entry, and each day Customs and Border 
Protection (CBP) officers must inspect more than 1.2 million passengers 
and pedestrians. Last year alone, CBP welcomed over 423 million 
travelers through our ports of entry. During Fiscal Year 2006, CBP 
processed a record 87 million passengers arriving from abroad by air, 
the second consecutive fiscal year the number of such passengers has 
exceeded pre-9/11 levels.
    As America's frontline border agency, CBP employs highly trained 
and professional personnel, resources, and law enforcement authorities 
to discharge our priority mission of preventing terrorists and 
terrorist weapons from entering the United States. CBP has made great 
strides toward securing America's borders while facilitating legitimate 
trade and travel and ensuring the vitality of our economy.
    As part of our layered approach to border security, CBP operates 
several ``trusted traveler'' programs, including the Secure Electronic 
Network for Travelers Rapid Inspection (SENTRI), Free and Secure Trade 
(FAST), and NEXUS programs. These bi-national programs facilitate the 
crossing of low-risk frequent travelers and commercial truck drivers at 
the land borders through exclusive, dedicated lanes. To enroll in these 
programs, travelers must provide proof of citizenship; a Border 
Crossing Card (BCC) or other visa, if required; and other identity 
documentation, such as a driver's license or ID card. An intensive 
background check against law enforcement databases and terrorist 
databases is required and includes fingerprint checks and a personal 
interview with a CBP officer. Approximately 325,000 SENTRI, NEXUS, and 
FAST cards have been issued. SENTRI is now operational at the nine 
largest Southwest border crossings, and as of November 1, 2006, the 
Global Online Enrollment System (GOES) is available for SENTRI 
applicants. With GOES, SENTRI applicants may register and input their 
applications at a single location, the Williston Centralized Vetting 
Center. This centralized location will help facilitate increased 
accuracy and quicker processing time of SENTRI applications.
    In December 2006, enrollment in the NEXUS Air, Highway, and Marine 
programs was harmonized. As of February 2007, 119,861 members are now 
``in for one, in for all'' and can cross the border using any of the 
three modes of transportation (air, land, and sea) at participating 
locations. These programs are implemented in partnership with the 
governments of Canada and Mexico, and many citizens of these countries 
currently participate in the programs.
    The standardization of travel documents is a critical next step to 
securing our Nation's borders and increasing the facilitation of 
legitimate travelers. Currently, there are thousands of different 
documents a traveler can present to CBP officers when attempting to 
enter the United States, creating a tremendous potential for fraud. In 
Fiscal Year 2006 alone, over 209,000 individuals were apprehended at 
the ports of entry trying to cross the border with fraudulent claims of 
citizenship or false documents. The Western Hemisphere Travel 
Initiative (WHTI) is a joint effort by DHS and the Department of State 
to address this security vulnerability and increase traveler 
facilitation.
    The initial phase of WHTI went into effect January 23, 2007, 
obligating all air travelers, regardless of age, to present a passport, 
NEXUS Air Card, or Merchant Mariner Card for entry to the United 
States. The implementation of the air portion of WHTI was highly 
successful, with documentary compliance rates nearing 99.9 percent and 
no interruption to air transportation. This high level of compliance 
was due to the holistic and collaborative planning approach taken by 
DHS and the Department of State, starting well before the new rules 
went into effect. An aggressive public outreach campaign aimed at 
increasing awareness of the new documentary requirements was a critical 
first step, as was working closely with private industry and air 
carriers from the planning stages through implementation, in enforcing 
the new rules in a flexible and reasonable manner.
    As early as January 1, 2008, U.S. citizens traveling between the 
United States and Canada, Mexico, Central and South America, the 
Caribbean, and Bermuda by land or sea will be required to present a 
valid passport or other WHTI-compliant documents, as determined by DHS. 
As with the air portion of the WHTI requirement, we are taking a 
holistic and collaborative approach to implementing these new 
requirements. As an example, DHS recently announced its intent to 
propose, as part of the forthcoming Notice of Proposed Rulemaking 
(NPRM) on WHTI, significant flexibility regarding travel documents 
required for U.S. and Canadian children. This proposal, which will be 
subject to public comment as part of the WHTI NPRM process, would allow 
U.S. and Canadian citizens, ages 15 and younger and with parental 
consent, to cross the border at land and sea ports with a certified 
copy of their birth certificate as an alternative to a passport or 
other WHTI-compliant identity card. U.S. and Canadian citizen children, 
ages 16 through 18, traveling with public or private school groups, 
religious groups, social or cultural organizations, or teams associated 
with youth athletics organizations would also be able to enter, under 
adult supervision, with a certified copy of their birth certificate. 
This proposal does not affect the documentary requirements for air 
travel within the Western Hemisphere, as I have outlined earlier.
    In partnership with the private sector and state and local 
governments, DHS has introduced a pilot ``Model Airport'' program to 
ensure a more welcoming environment for foreign visitors. The pilot 
projects at the Houston Intercontinental Airport and Washington Dulles 
International Airport feature customized video messages for the public 
with practical information about the entry process, improved screening 
and efficient movement of people through the border entry process, and 
assistance for foreign travelers once they have been admitted to the 
United States. The Model Airport program is progressing as scheduled. 
By March 23, 2007, CBP will complete the customized video providing 
practical information about the entry process to arriving international 
travelers. Broadcast systems explaining the entry process to travelers 
while they are in the Federal Inspection Services (FIS) area will be 
installed and operational at the Houston Intercontinental Airport by 
April 2, 2007, and at the Washington Dulles International Airport by 
April 17, 2007. The directional signage and banners to guide travelers 
through the entry process have already been installed in the FIS area 
of both airports. New brochures explaining the inspection process to 
the public are being printed and will be made available in April 2007.
    The Model Ports concept document is complete and has been 
distributed to stakeholders. The Performance Measurements Committee, 
tasked with identifying recommendations to improve the international 
passenger arrivals process has met and is analyzing the collected data. 
CBP entry documents are currently being reviewed to determine the 
feasibility of document consolidation. In addition, CBP is in the 
process of reviewing the current professionalism initiative for 
enhancement measures, and Disney has expressed its desire to 
participate in the process. CBP is currently scheduled to meet with 
Disney executives on March 29, 2007, to discuss CBP's current 
professionalism initiative process and conduct a walk-through to 
evaluate the CBP process in the FIS at the Orlando International 
Airport.
    The ``Blueprint to Discover America Partnership'' has been reviewed 
by CBP, and we are in agreement with its three main goals: a faster and 
more secure visa system, more rapid processing of passengers at 
airports, and the creation of a more welcoming environment for 
international passengers. The Rice-Chertoff Initiative, the DHS/State 
Department ``Secure Borders, Open Doors'' Initiative, the US-VISIT 
Program, and the Commerce Department's Travel and Tourism Advisory 
Board (TTAB) have all focused on these same goals to improve the 
international traveler experience. Through various government 
initiatives, such as requiring e-passports for Visa Waiver Program 
(VWP) travelers, setting up Model Airports, and developing a ``single 
portal'' for transmission of passenger information, we are going a long 
way toward improving the air passenger experience. We support the 
fundamental objectives in the ``Blueprint'' to speed passengers through 
airports, to expedite visa processing and enhance security, and to make 
the travel experience more enjoyable. We will continue to work 
collaboratively and expeditiously toward meeting these goals.
    The DHS Travel Redress Inquiry Program (DHS TRIP) is a single point 
of contact for individuals who have inquiries or seek resolution of 
difficulties experienced during their travel screening at 
transportation hubs--like airports and train stations--or while 
crossing U.S. borders. Difficulties such as denied or delayed airline 
boarding, denied or delayed entry or exit at a port of entry or border 
checkpoint, or continuous referral to additional (secondary) screening 
can be addressed through DHS TRIP. Travelers who have been repeatedly 
identified for additional screening can file an inquiry to have 
erroneous information corrected in DHS systems. Information provided by 
travelers is used solely to process their request for redress, and 
safeguards are in place to protect the privacy of any personal 
information provided.
    An effort similar to DHS TRIP is the Primary Lookout Over-Ride 
(PLOR), a systems upgrade created in February 2006, that benefits 
antiterrorism security measures as well as international travelers by 
alleviating additional screening procedures for individuals with the 
same, or similar, biographical information as watch-listed individuals. 
This system upgrade allows CBP officers at ports of entry to eliminate 
the need for secondary inspections on subsequent trips in cases where 
travelers' names, birthdates, or other biographical information match 
those of high-risk individuals. This is only done once the CBP officer 
has verified that a particular individual is not the person of 
interest. It is important to note that PLOR does not involve the 
collection of any new data, does not create new databases or lists, and 
does not require any action on the part of the traveler. To date, this 
process has resulted in over 17,000 additional inspections being 
avoided--a significant savings in both processing times and operational 
costs.
    CBP collects biometrics on almost all non-U.S. citizens at the 
primary inspection area in our air and sea ports and at the secondary 
inspection in our land ports. Through the US-VISIT system, CBP checks 
individuals against a fingerprint-based watchlist of known or suspected 
terrorists, wants and warrants, immigration violations, and other 
criminal history information and verifies whether a person is the same 
one previously encountered by DHS and/or the Department of State. The 
US-VISIT Program has substantially added to CBP's screening 
capabilities, enhancing our ability to process travelers in a timely 
and secure fashion. US-VISIT's transition to a full ten-fingerprint 
collection system is paramount to further strengthening and expanding 
our screening capabilities.
    The Immigration Advisory Program (IAP) extends our zone of security 
outward by screening overseas passengers before they board aircraft 
destined for the United States. IAP teams identify high-risk and 
terrorist watch-listed passengers using the Automated Targeting System 
and use that information to advise airlines whether passengers should 
not be boarded on a flight to the United States. Since IAP became 
operational, 1,500 passengers have been prevented from boarding planes 
bound for the United States. Of those, nine were prevented from 
boarding flights due to security concerns--four were on the 
Transportation Security Administration (TSA) No-Fly list, and five were 
the subject of TIDE records with sufficient derogatory information to 
support a refusal of admission. TIDE is the comprehensive terrorist 
database. In addition, 88 passengers attempting to travel with 
fraudulent documents were stopped, and 1,403 that were otherwise 
improperly documented were also intercepted. To date, IAP has saved CBP 
$2.26 million in processing costs and the airlines $2.21 million in 
fines.
    The Carrier Liaison Program (CLP) was developed to enhance border 
security by helping commercial carriers to become more effective in 
identifying improperly documented passengers destined for the United 
States. The primary method for accomplishing this mission is by 
providing technical assistance and training to carrier staff. Technical 
assistance includes publication and distribution of information guides 
and document fraud summaries and alerts. In addition, CBP is developing 
the 24/7 Carrier Response Center phone line to provide real-time entry 
requirements and document validity advice to carrier staff worldwide. 
The U.S. Immigration and Customs Enforcement (ICE) Forensic Document 
Laboratory (FDL) supports the CLP in multiple ways and provides FDL 
Document Alerts to the CLP for distribution to airline personnel. The 
CLP provides training on U.S. entry requirements, passenger assessment, 
fraudulent document detection, and imposter identification using state-
of-the-art document examination material, equipment, and training 
tools. Training is delivered at U.S. ports of entry and at airports 
abroad by experienced CLP officers and is customized to meet the needs 
of specific carriers or locations based on performance analysis or 
emergent circumstances. CLP officers also assist carriers to develop 
and implement strategies to reduce travel document abuse. To date in FY 
2007, CBP has completed 31 training sessions--17 overseas and 14 at 
U.S. ports of entry--and over 1,900 airline personnel and document 
screeners have been trained. CBP has scheduled training at over 40 
overseas locations and 30 U.S. ports of entry this fiscal year. For FY 
2008, CBP anticipates training sessions at over 50 overseas locations 
and 30 U.S. ports of entry.
    In January 2005, CBP created the Fraudulent Document Analysis Unit 
(FDAU) to collect documents, provide ports with analysis of document 
trends and intelligence information, and target persons being smuggled 
into the United States using fraudulent documents. Between January and 
December 2005, the FDAU received 40,875 fraudulent documents 
confiscated at ports of entry and mail facilities. Working with the 
FDAU, CBP expects the seizure of fraudulent documents to increase.
    The Advance Passenger Information System (APIS) was developed in 
1988 in cooperation with the airline industry as a voluntary program. 
This program established a system for the electronic transmission of 
passenger and crew biographical data by commercial carriers. Commercial 
carriers and the international community recognize APIS as a standard 
for passenger information processing and enhanced security. APIS 
information is a critical tool that allows CBP to target high-risk 
travelers while facilitating the progress of legitimate travelers 
through the entry and clearance process.
    On April 7, 2005, the APIS Final Rule (AFR) was published in the 
Federal Register, requiring the submission of manifest information by 
all commercial air and sea carriers arriving into or departing from the 
United States. Additionally, the AFR established the required data 
elements and timelines for manifest submissions. Pursuant to the 
Intelligence Reform and Terrorism Prevention Act (IRTPA) of 2004, the 
CBP Pre-Departure Notice of Proposed Rulemaking (NPRM) was published in 
the Federal Register on July 14, 2006. The NPRM proposed that 
commercial carriers transmit APIS manifest data prior to departure 
from, and arrivals to, the United States. The NPRM offered two options: 
carriers could continue to use the current manifest transmission format 
for submission, or carriers could start using APIS Quick Query (AQQ), 
where a single APIS message would be submitted as passengers check in. 
As part of the DHS commitment to establishing a common reporting 
process for carriers submitting traveler information, CBP has been 
working with TSA to align the CBP Pre-Departure requirements with the 
Secure Flight program. The APIS Pre-Departure final rule is undergoing 
final DHS and CBP review prior to submission to the Office of 
Management and Budget (OMB).
    As reflected in the National Strategy for Pandemic Influenza, the 
goals of the Federal Government's preparedness and response to a 
potential pandemic are to stop, slow, or otherwise limit the spread of 
the pandemic to the United States; limit the domestic spread of a 
pandemic, and mitigate disease, suffering and death; and to sustain our 
infrastructure and mitigate the impact to our economy and the 
functioning of society. CBP must be prepared to maintain essential 
services, mitigate against the introduction, spread, and consequences 
of a pandemic, and protect our workforce and the public. CBP is working 
with our DHS partner agencies, as well as the Centers for Disease 
Control and Prevention (CDC), to develop effective and appropriate 
entry/exit procedures and travel restrictions during a pandemic.
    CBP officers are committed to the highest standards of professional 
conduct. We want to assist the millions of legitimate travelers who 
pose little or no threat in gaining proper entry into the United 
States, both safely and efficiently. As part of this effort, CBP 
recently implemented a campaign to educate travelers. Here are some of 
the best pieces of advice CBP can provide to travelers to help them 
have a safe, efficient and enjoyable trip abroad:
    First, travelers should be sure to declare everything they bring in 
from abroad, even if the item is bought it in a duty-free shop. All 
passengers arriving on a plane must complete a CBP declaration form. 
This declaration prevents the unintentional introduction of prohibited 
items, such as fruits and food products that could introduce 
devastating diseases and pests into the United States and severely 
damage U.S. agriculture. If items purchased abroad are intended for 
personal use or as gifts, they are eligible for duty exemptions. If 
they are intended for resale, they are not. If any duty is owed, a CBP 
officer will assist you in paying that duty.
    Second, travelers need to be aware that every food product, fruit, 
and vegetable must be declared to a CBP officer and must be presented 
for inspection. Many travelers look forward to bringing home special 
food items from abroad. However, it is important to ``know before you 
go'' which items can and cannot be brought into the United States from 
abroad. It is important to remember that the rules and regulations are 
in place to protect the American economy, plant and animal wildlife, 
and the health of the American people.
    Mr. Chairman, Members of the Subcommittee, I have outlined a broad 
array of initiatives today that, with your assistance, will help DHS 
continue to protect America from terrorist threats while fulfilling our 
other important traditional missions. But our work is not complete. 
With the continued support of the Congress, DHS will succeed in meeting 
the challenges posed by the ongoing terrorist threat and the need to 
facilitate ever-increasing numbers of legitimate shipments and 
travelers.
    Thank you again for this opportunity to testify. I will be happy to 
answer any questions you may have.

    Senator Dorgan. Mr. Jacksta, thank you very much for being 
here.
    Mr. Al Martinez-Fonts is the Assistant Secretary in the 
Department of Homeland Security and it says Assistant Secretary 
for the Private Sector office. Would you explain to us exactly 
what that means?

           STATEMENT OF ALFONSO MARTINEZ-FONTS, JR.,

          ASSISTANT SECRETARY, PRIVATE SECTOR OFFICE,

                    POLICY DIRECTORATE, DHS

    Mr. Martinez-Fonts. Yes, sir.
    Senator Dorgan. And, welcome Mr. Martinez-Fonts.
    Mr. Martinez-Fonts. Thank you very much, Mr. Chairman, 
Chairman Inouye.
    The Private Sector Office has an overall mission to provide 
America's private sector with a direct line of communications 
to the Department of Homeland Security. We utilize information 
received from the private sector and promote departmental 
policies to the private sector, so it's really a two-way 
street.
    Thank you very much for inviting me here today to join my 
colleagues, especially Bob Jacksta from CBP, as well as my 
colleagues from the Department of Commerce, and the State 
Department.
    The Department of Homeland Security Private Sector Office, 
was given in the Intelligence Reform and Terrorism Prevention 
Act of 2004 the very important responsibility of working with, 
and consulting with, the travel and tourism industry. As a 
result, a significant effort of our office's work goes toward 
this goal.
    I, first, would like to emphasize that we've established 
and maintained a very strong relationship with the industry's 
largest organizations, including the Travel Industry 
Association of America, the Travel Business Roundtable, and the 
World Travel and Tourism Council. We've also reached out and 
worked well with other sector-specific organizations, 
including, but not limited to, the American Bus Association, 
National Restaurant Association, the International Council of 
Cruise Lines, and I could go on and use up more than my 5 
minutes. We also work with individual companies, such as Disney 
Parks and Marriot Hotels. As a result of these relationships, 
we have learned private sector best practices and have 
encouraged their use by the U.S. Government.
    As you've already heard, the Rice-Chertoff Vision, which is 
commonly referred to as the Rice-Chertoff Initiative, was 
announced on January of 2006 by the Secretaries of State and 
Homeland Security, in order to focus effort on the important 
need to facilitate travel, while ensuring the security of the 
Nation. Secretary Chertoff has tasked my office with 
coordinating progress on the objectives laid out within the 
Rice-Chertoff Initiative. The Private Sector Office has played 
an integral role in forming and coordinating a successful 
network to make this happen.
    This is formulated into a network which has three levels. 
First, coordination within the Department of Homeland Security. 
Second, the interagency approach facilitating communication 
among multiple departments of the U.S. Government, and third, 
the linkage to the private sector.
    Let me give you a quick overview by discussing the first 
level of coordination within DHS. Over the past year, we have 
worked with all of the DHS components that have something to do 
with travel and tourism, including Customs and Border 
Protection, the Transportation Security Administration, the 
Privacy Office, the office of Civil Rights and Civil Liberties, 
U.S. Immigration and Customs Enforcement, USCIS, US-VISIT, and 
the Policy Directorate, to which I report.
    This leads me to the second level of the network. This is 
coordination amongst DHS and other governmental agencies. We at 
the Private Sector Office have collaborated closely with the 
Department of State's Bureau of Consular Affairs to meet the 
goals outlined in the Initiative. One of the examples of that 
coordination, between the departments is the extension from 90 
days to 120 days in the time before the start of classes that 
international students can apply for a visa.
    In addition to collaborating with the State Department, the 
network includes a strong partnership with the Department of 
Commerce, also represented here today. This includes 
participation in the Tourism Policy Council, led by Secretary 
Gutierrez, and comprised of 17 agencies and offices in the 
Federal Government. This network, this three-tiered network 
that I mentioned would not be complete without the involvement 
of the private sector, including the airlines, amusement parks, 
hotels, universities, hospitals, and trade associations.
    It is at this level that the Private Sector Office lends 
value by exchanging useful information and advocating for 
private sector interests when policies, such as the Western 
Hemisphere Travel Initiative, or WHTI, are being drafted. Our 
office also helps to incorporate best practices. Government 
agencies must coordinate better, not only amongst themselves, 
but with private industry, as well.
    One example of a system where all three levels come 
together is the creation and implementation of the Secure 
Borders Open Doors Advisory Committee, and like everything else 
in government, it has an acronym, SBODAC. An advisory Committee 
of the Rice-Chertoff Initiative, it is formed under the 
auspices of the Homeland Security Advisory Council. The SBODAC 
represents a broad spectrum of private sector partners that are 
impacted by the Rice-Chertoff Initiative. The creation of 
SBODAC was one of the 13 objectives. Secretary Chertoff 
selected the members of the Committee, including leaders from 
academia, business, healthcare, the media, and the travel and 
tourism industry.
    Another example of collaborative work we've done with 
private industry is the air roll-out of the Western Hemisphere 
Travel Initiative, WHTI. In the months before the roll-out, we 
worked with travel and tourism stakeholders to make sure that 
people were aware of the passport requirements far in advance 
of the deadline. Success was demonstrated as 94 percent of the 
Americans that entered by land had passports, and over 99 
percent of the travelers had passports by the second day.
    I'd like to close today by emphasizing that completion of 
the objectives of the Rice-Chertoff Initiative require 
successful work and coordination within agencies, between 
agencies, and through public-private partnerships. We are using 
this three-tiered network to reach our goals.
    Thank you, Chairman Dorgan, Chairman Inouye for being here 
today, thank you for providing me the opportunity to update you 
on our efforts. I look forward to your questions.
    [The prepared statement of Mr. Martinez-Fonts follows:]

Prepared Statement of Alfonso Martinez-Fonts, Jr., Assistant Secretary, 
             Private Sector Office, Policy Directorate, DHS
    Good morning, Chairman Dorgan, Senator DeMint and members of the 
Subcommittee. Thank you for inviting me to be here today to join my 
colleague Mr. Robert Jacksta in representing the Department of Homeland 
Security (DHS) and to discuss the efforts of the Department to 
facilitate travel and tourism policy for the United States. The DHS 
Private Sector Office was given in the Intelligence Reform and 
Terrorism Prevention Act of 2004 the very important responsibility of 
working with, and consulting with, the travel and tourism industry. As 
a result, significant effort of our office goes toward this goal. This 
is in addition to the overall mission of our office, which is to 
provide America's private sector with a direct line of communication to 
DHS, utilize information received from the private sector, and promote 
Departmental policies to the private sector.
    I first would like to emphasize that we have established and 
maintained very strong relationships with the industry's largest 
associations, including the Travel Industry Association of America, 
Travel Business Roundtable, and the World Travel and Tourism Council. 
We have also reached out to and worked well with other sector-specific 
organizations, including, but not limited to, the American Bus 
Association, the National Restaurant Association, the International 
Council of Cruise Lines, NAFSA: the Association of International 
Educators, the American Hotel and Lodging Association, and the Air 
Transport Association. We also work with individual companies, 
including Disney Parks and Resorts and Marriott Hotel. As a result of 
these relationships, we have learned private sector best practices and 
have encouraged their use by the U.S. Government.
    As you may know, the Rice-Chertoff Joint Vision, which is commonly 
referred to as the Rice-Chertoff Initiative (RCI), was announced in 
January of 2006 by the Secretaries of State and Homeland Security in 
order to focus efforts on the important need to facilitate travel while 
ensuring the security of the Nation. Secretary Chertoff has tasked my 
office with coordinating progress on the objectives laid out in the 
RCI. The Private Sector Office has played an integral role in forming 
and coordinating a successful network to make this happen. This network 
has three levels: (1) coordination within DHS; (2) inter-agency 
approach, facilitating communication among multiple departments of the 
U.S. Government; and (3) linkages to the private sector.
    Let us start by discussing the first level of coordination within 
DHS. Over the past year, we have worked with all DHS components that 
affect travel and tourism. This includes U.S. Customs and Border 
Protection, the Transportation Security Administration, the Privacy 
Office, the Office for Civil Rights and Civil Liberties, U.S. 
Immigration and Customs Enforcement, U.S. Citizenship and Immigration 
Services, US-VISIT, as well as my own Directorate, the Policy Office. 
The Policy Office sets DHS policy. As you may know, DHS sets the visa 
policy which the Department of State then executes--an example of a 
close and productive working relationship between the agencies.
    This leads me to point out the second level of the network: 
coordination among DHS and other governmental agencies. When Secretary 
Rice and Secretary Chertoff announced their Joint Vision, it was the 
continuation of a very productive relationship between the Departments. 
We at the Private Sector Office have collaborated closely with 
Department of State's Bureau of Consular Affairs, to meet the goals 
outlined by the initiative. One example of streamlined coordination 
between the Departments is the extension from 90 days to 120 days of 
the amount of time before the start of classes that international 
students can apply for a visa. This extension was approved by both DHS 
and State and is currently being implemented by the Department of State 
at U.S. Consulates around the world and communicated on the 
Department's website. This ruling makes studying in the United States 
more convenient and attractive to international students.
    In addition to collaborating with State, the network includes a 
strong partnership with the Department of Commerce. This includes 
participation with the Tourism Policy Council, led by Secretary 
Gutierrez and comprised of 17 agencies and offices of the Federal 
Government.
    This network also is not complete without involvement by the 
private sector, including the airlines, amusement parks, hotels, 
universities, hospitals, and trade associations. It is at this level 
where the Private Sector Office lends value by exchanging useful 
information advocating private sector interest when policies such as 
the Western Hemisphere Travel Initiative (WHTI) are being drafted. Our 
office also helps to incorporate best practices. Government agencies 
must coordinate better not only amongst themselves, but with private 
industry as well. A system for promoting cooperation between the 
government and the private sector to promote travel to the United 
States is a recommendation laid out by the travel and tourism industry. 
We recognize the value of public-private partnerships.
    One example of a system where all three levels come together is the 
creation and implementation of the Secure Borders Open Doors Advisory 
Committee (SBODAC), an advisory board to the RCI, formed under the 
auspices of the Homeland Security Advisory Council (HSAC) in 
coordination with the Department of State. The SBODAC represents a 
broad spectrum of private sector partners impacted by RCI and its 
programs and completes one of the 13 RCI objectives. Secretaries Rice 
and Chertoff selected the members of the Committee including leaders 
from academia, business, hospitals, media, and the travel and tourism 
industry.
    The first meeting of the SBODAC was held on December 6, 2006, and 
focused on Model Ports of Entry and One Stop Redress. Present at the 
meeting were representatives from private industry in addition to 
officials from the Departments of State, Homeland Security, Commerce, 
and Education. The SBODAC has since formed four working groups to 
address various components of RCI: (1) public diplomacy and 
international outreach; (2) visa policy and processing; (3) critical 
success factors and metrics; and (4) ports of entry. These working 
groups are meeting throughout the month of March of this year with 
colleagues from DHS and the Department of State to start putting forth 
recommendations with the goal of achieving a balance between security 
and economic prosperity.
    Another example of this third level of the network is DHS' work 
with the Department of Commerce's Travel and Tourism Advisory Board, 
headed by Mr. Jay Rasulo of Disney Parks and Resorts, whom I know 
testified before you on January 31 of this year. Our office joined the 
Department of State in presenting a six-month RCI Progress Report to 
the TTAB at their July 2006 meeting in Chicago. In other meetings with 
the TTAB, we have reported on the status of the Western Hemisphere 
Travel Initiative and heard the concerns and recommendations of the 
Board.
    One recent example of this is our work with U.S. Customs and Border 
Protection to incorporate the participation of the Travel Industry 
Association, Disney Parks and Resorts, and Universal Parks and Resorts 
into a task force that will form recommendations to improve the entry 
process.
    Another example of collaborative work we've done with private 
industry is collaboration during the air roll-out of the Western 
Hemisphere Travel Initiative. In the months before the roll-out, DHS 
worked with our travel and tourism stakeholders, including the 
airlines, hotels, travel distribution channels (such as Expedia and 
Orbitz), to ensure that travelers were aware of the new passport 
requirements far in advance of the deadline. Success was demonstrated 
by the numbers, as 94 percent of Americans that entered the U.S. by air 
had passports the week before implementation and 99 percent of 
travelers had passports by the second day after implementation of the 
air rule. We will continue our collaboration with the travel and 
tourism industry with the land and sea rollout.
    While we have had the pleasure of helping to form the network of 
players for RCI, we are also pleased to witness the progress that 
others have made on the Initiative. In addition to the SBODAC, DHS and 
the Department of State are on a path to meet all 13 of the RCI 
objectives. Today I especially want to highlight the efforts of my 
colleague, Mr. Robert Jacksta, in leading DHS full speed ahead on RCI's 
first objective in creating our two Model Ports at Washington Dulles 
International Airport and Houston Bush-Intercontinental Airport, with 
new signage already up and more progress on recommendations already on 
the way. I would also like to highlight the success of DHS' first one-
stop travel screening redress program, known as DHS Traveler Redress 
Inquiry Program (TRIP). The system satisfies another of RCI's 
objectives and has begun receiving redress requests as of February 20, 
2007.
    While we are pleased with the successes of the past year, we are 
also aware of the continuing need to evaluate and improve on our 
efforts. At the Private Sector Office, we understand the importance of 
this industry to our Nation and are continuously assisting DHS in 
finding the right balance between economic vitality and national 
security. We are cognizant of the need for our government and private 
sector partners to work closely in order to facilitate travel in a safe 
and secure manner and demonstrate the greatness of this Nation to 
international visitors. As the industry's research has pointed out, 
traveling to the United States makes visitors 74 percent more likely to 
feel extremely favorable about our country. The Blueprint to Discover 
America lays out some policy recommendations, which I would welcome the 
opportunity to address for you during the question and answer session. 
Many of these recommendations are consistent with current government 
programs which have been underway since the inception of RCI.
    I close today by emphasizing that completion of the objectives of 
RCI requires successful work and coordination within agencies, between 
agencies, and through public-private partnerships. We are using this 
three-tiered network to reach our goals. Thank you Chairman Dorgan, 
Ranking Member DeMint, and members of the Subcommittee for providing me 
the opportunity to update you about our efforts. I look forward to your 
questions.

    Senator Dorgan. Mr. Martinez-Fonts, thank you very much. 
Finally, we'll hear from Mr. Stephen Edson, who's the Deputy 
Assistant Secretary for Visa Services at the Department of 
State.
    Mr. Edson, you may proceed.

 STATEMENT OF STEPHEN A. EDSON, DEPUTY ASSISTANT SECRETARY FOR 
            VISA SERVICES, U.S. DEPARTMENT OF STATE

    Mr. Edson. Thank you very much, Chairman Dorgan, Chairman 
Inouye. I appreciate this opportunity to discuss how the Bureau 
of Consular Affairs is facilitating the travel of legitimate 
international visitors to the United States, while vigilantly 
protecting U.S. border security for the benefit of Americans 
and our foreign visitors.
    Together with our colleagues in the Departments of Homeland 
Security and Commerce, we have implemented changes to 
strengthen U.S. border security through the visa process. And, 
we've also worked tirelessly to ensure that the visa process is 
the beginning of a positive welcome to the United States, for 
all legitimate travelers. Security is, and must remain our 
primary concern, but welcoming international visitors is also a 
matter of our national security.
    Our efforts have produced results. We've turned a corner 
and our metrics are positive across the board. Non-immigrant 
visa issuances in FY 2006 rose 8 percent over the previous 
year, with business and tourist visa issuances increasing by 12 
percent. We issued an all-time high of 591,000 student and 
exchange visitor visas last fiscal year. We've seen increases 
from every region in the world, but the numbers for some of our 
key business and travel markets are particularly marked. For 
example, business and tourist visa issuance is up 12 percent 
for Indian citizens, 16 percent for Chinese, 13 percent for 
Koreans, and a whopping 70 percent for Brazilians.
    We put structures in place to ensure the visa process is 
not the daunting ordeal it is sometimes portrayed to be. Visa 
applications are up 5 percent worldwide. And the growth and 
demand is explosive in some markets. Clearly, travelers still 
seek to come to the United States and we're dedicated to 
helping them get here.
    I'd like to take this opportunity to say a few words about 
the unprecedented demand by American citizens for U.S. 
passports. Applications received for the first 5 months of 
Fiscal Year 2007 are 44 percent higher than for the same period 
last year. We see this demand as a positive development. 
Currently, 74 million Americans, approximately one-quarter of 
the population, are documented with a U.S. passport. As more of 
our fellow citizens obtain these secure documents, our border 
becomes more secure and more efficient.
    The Department of Commerce figures on international 
arrivals are good news and we welcome them. Yet, we're still 
not satisfied. To continue to meet the demand for visas, to 
continue to keep our national welcome mat out, and to continue 
to facilitate legitimate travel, we want to introduce 
additional enhancements. For those travelers who require a 
visa, the wait for an appointment can impact short-term travel 
plans. Despite the explosive demand I described earlier, nearly 
90 percent of our 219 visa issuing posts currently have average 
wait times of under 30 days. And, at the large majority, the 
wait time is actually less than 1 week.
    Many of the overall changes we've already introduced will 
help to keep that wait time down. We're employing customized 
solutions to tackle situations in particular countries with 
persistent and unacceptably high appointment wait times. We 
will open additional consular facilities in key countries. The 
Department has obtained funding for a fifth consulate in 
Hyderabad, in southern India. A team, led by Under Secretary 
for Management Fore, was in Hyderabad earlier this month to 
inspect the proposed site, and we hope to actually open a 
consulate there, including the provision of visa services, 
beginning in Fiscal Year 2008.
    The Bureau of Consular Affairs exploits advanced 
technologies to automate consular processes wherever possible. 
Our strategy for meeting our visa demand challenges, includes 
exploring how technology can provide consular officers with the 
information to make more rapid and accurate decisions and 
collapse the distance between the consular officer and the 
traveler.
    Mr. Chairman, our efforts to facilitate legitimate travel 
to the United States, while protecting the security of this 
nation, will continue. Improving America's welcome for foreign 
visitors, and countering lingering misperceptions about that 
welcome, will require joint efforts by both government and 
private stakeholders. We look forward to working with business 
groups and our partner agencies toward that goal. And, in the 
meantime, we will ensure the welcome begins with an efficient, 
accessible, and secure visa process.
    Thank you.
    [The prepared statement of Mr. Edson follows:]

Prepared Statement of Stephen A. Edson, Deputy Assistant Secretary for 
                Visa Services, U.S. Department of State
    Chairman Dorgan, Ranking Member DeMint, distinguished members of 
the Subcommittee:
    I appreciate this opportunity to discuss how the Bureau of Consular 
Affairs is facilitating the travel of legitimate international visitors 
to the United States while vigilantly protecting U.S. border security 
for the benefit of Americans and our foreign visitors.
    Secretary of State Condoleezza Rice identified these objectives as 
part of the mission of the Department of State to the Senate Foreign 
Relations Committee on February 8, 2007, when she said, ``The State 
Department mission extends to defending our borders and protecting our 
homeland. We must strive to remain a welcoming nation for tourists, 
students and businesspeople, while at the same time increasing our 
security against terrorists and criminals who would exploit our open 
society to do us harm.''
    Together with our colleagues in the Departments of Homeland 
Security and Commerce, we strive constantly to strike the right balance 
between protecting America's borders and preserving America's welcome 
to international visitors and our fundamental openness to the world, 
which is the source of our strength and sense of ourselves.
Secure Borders, Open Doors
    The context for all our efforts with regard to visa procedures 
continues to be September 11, 2001. On that terrible day, when so many 
Americans and citizens from 90 other nations lost their lives in New 
York, Pennsylvania, and Virginia, we saw the lengths to which some 
would go to exploit our open society to do us harm. I think that all 
people of good will can appreciate that we had to act swiftly and 
decisively in the aftermath of 9/11 to address our Nation's border 
security needs.
    Since 9/11 the Department of State has instituted numerous changes 
to the way U.S. visas are processed. Some of these changes were 
instituted by law, others through the interagency process. Together, 
they legitimately aim to improve the security and integrity of the visa 
process for the benefit of both U.S. citizens and our international 
visitors.
    As we have implemented these changes to strengthen U.S. border 
security through the visa process, we have worked tirelessly to ensure 
that our visa process remains the beginning of a positive welcome to 
legitimate travelers. Security is, and must be, our primary concern, 
but welcoming international visitors is also a matter of national 
security. Foreign visitors accounted for $107.4 billion in spending and 
other economic activity in the United States in 2006, according to 
Department of Commerce figures. International students contribute an 
additional $13.5 billion each year to the institutions that they attend 
and the surrounding communities where they live and study.
    Beyond the financial benefits that are clearly good for our nation, 
we need to remain the welcoming country that the United States has 
traditionally been because of the intangible benefits of such a 
posture. It is essential that we provide visitors with a positive 
experience because that experience has incalculable influence in 
shaping impressions and opinions of our Nation and our people. The best 
advertisement for America is America.
    Our policy of increasing the national security of the United States 
while welcoming international visitors is captured by the phrase 
``Secure Borders and Open Doors.'' These objectives are by no means 
mutually exclusive; in fact, they are mutually reinforcing. We can, and 
must, achieve both. Meeting these two objectives presents us with 
management, resource, security, and public diplomacy challenges. We are 
proceeding aggressively yet deliberately, in order to get the balance 
right.
Implementing the Rice-Chertoff Joint Vision
    In January 2006, the Secretaries of State and Homeland Security 
launched the ``Rice-Chertoff Joint Vision: Secure Borders and Open 
Doors in the Information Age'' as a commitment to striking that 
balance. This initiative aims to improve:

  <bullet> The efficiency, predictability, and transparency of the visa 
        process;

  <bullet> The security of U.S. passports and other travel documents; 
        and

  <bullet> The U.S. Government's ability to screen visa applicants and 
        travelers who arrive at our borders.

    Our efforts to implement the goals and spirit of the Joint Vision 
began long before the formal launch of this plan. Over the past year we 
have made significant progress in advancing these objectives. Let me 
take this opportunity to highlight some recent achievements.
Improvements to the Visa Process
    We have made changes that enhance the efficiency, predictability, 
and transparency of the visa process and thereby facilitate 
international travel.
    We introduced an electronic visa application form, or EVAF, and 
mandated its use at consulates worldwide in November 2006. EVAF use 
reduces data entry errors, eliminates duplicative data entry, and 
increases the number of applicants whom consular staff can interview 
daily.
    We introduced an Internet-based visa appointment system. All 
consular posts have placed appointment wait times online on our website 
at travel.state.gov, so that visa applicants have more information to 
plan their travel.
    Since 2001 we have created 570 new consular positions at posts 
worldwide to handle visa demand.
    Visa processing delays have been cut dramatically:

  <bullet> By fully automating the process and streamlining 
        information-sharing with other agencies, we have drastically 
        reduced to 2 weeks in most cases the amount of time it takes to 
        process security clearances. We are constantly working with our 
        interagency partners to reduce this time frame while still 
        meeting our legal obligations in this area.

  <bullet> We have also established a process for individuals or their 
        legal representatives to inquire through our public inquiries 
        division about the status of clearance requests.

    We have responded to suggestions from the business and academic 
communities and established mechanisms to assist student and business 
travelers, thus improving the welcome America provides to these key 
sectors:

  <bullet> All posts have established mechanisms to expedite visa 
        appointments for legitimate business travelers, students, and 
        international exchange visitors. We do not want students to 
        miss the start dates for their planned study, or legitimate 
        business travelers to have to forego a business meeting, 
        because they could not get an appointment.

  <bullet> A Business Visa Center (BVC) located in the Visa Office 
        explains the visa process to U.S. companies, convention 
        organizers, and others who invite employees or current or 
        prospective business clients to the United States. The BVC 
        handled almost 2,800 requests from American businesses for 
        information and assistance in cases involving over 139,000 
        business travelers in 2006.

  <bullet> Many posts have imaginative programs--often organized in 
        conjunction with local branches of the American Chamber of 
        Commerce (AmCham)--to facilitate business and tourist travel. 
        For example, Consulate General Shanghai's Corporate Visa 
        Program (CVP) with AmCham Shanghai lessens the interview wait 
        time for business applicants--most interviews take place within 
        a week after application materials have been submitted--and 
        establishes effective communication channels between AmCham and 
        the Consulate General. Shanghai processed over 9,600 visas for 
        nearly 500 CVP member companies through its program last year.

    These efforts have produced results. We have ``turned the corner,'' 
and our metrics are positive across the board. Nonimmigrant visa 
issuances in FY 2006 rose 8 percent over the previous year, with 
business/tourist visa issuances increasing by 12 percent. We issued an 
all-time high of 591,000 student and exchange visitor visas in FY 2006. 
We have seen increases from every region in the world, but the numbers 
for some of our key business and travel markets are especially marked. 
For example, business/tourist visa issuance is up 12 percent for Indian 
citizens, 16 percent for Chinese, 13 percent for Koreans, and 70 
percent for Brazilians.
    We have put the structures in place to ensure that the visa process 
is not the daunting ordeal that it is sometimes portrayed to be. Visa 
applications are up 5 percent worldwide. The growth in demand is 
explosive in some markets--for example, 17 percent in China and 30 
percent in Brazil. Clearly, travelers still seek to come to the United 
States, and we are helping them get here while still ensuring national 
security.
Secure Travel Documents
    As part of the promotion of secure travel documents, the first 
phase of the Western Hemisphere Travel Initiative (WHTI)--that all 
travelers arriving in the United States by air present a passport or 
other approved document--went into effect on January 23. The 
overwhelming majority of arrivals from destinations that previously did 
not require a passport did in fact present a passport. DHS facilitated 
entry for the handful that did not. U.S. Customs and Border Protection 
(CBP) reports 99 percent compliance with the passport requirement. This 
smooth transition was the result of aggressive outreach by the travel 
industry, foreign countries affected by WHTI legislation, and the 
Departments of State and Homeland Security, and is an excellent example 
of how government and the private sector can work together to 
facilitate international travel.
    The Department of State began issuing diplomatic e-passports on 
December 30, 2005, and official e-passports in April 2006. We began 
issuing e-passports to the public on August 14, 2006. All our domestic 
passport agencies have been fully converted to issue e-passports. 
Conversion of the two remaining mega-centers is forthcoming, pending 
sufficient blank e-passport inventory.
    We are also aggressively moving forward with the Department of 
Homeland Security on a ``Model Ports of Entry'' concept. Our goal is to 
ensure that international visitors' positive experience continues from 
the time they make a visa appointment to the time they pick up their 
bags at baggage claim.
    While it does not directly relate to the Rice-Chertoff Joint 
Initiative, I want to take this opportunity to say a few words about 
the unprecedented demand by American citizens for U.S. passports. 
Applications received for the first 5 months of Fiscal Year (FY) 2007 
are 44 percent higher than for the same period last year. Two key 
factors are driving this increase. January through April is typically 
the peak passport demand period, as travelers prepare for spring and 
summer holidays. In addition, the WHTI requirements created a surge in 
demand which began in November 2006.
    We see this higher demand as a positive development. Currently, 74 
million Americans--approximately one-quarter of the population--are 
documented with a U.S. passport. As more of our fellow citizens obtain 
these secure documents, the more secure and efficient our Nation's 
borders will be. The Department of State is committed to ensuring that 
Americans will have passports when they need to travel.
    In anticipation of this high demand for passports, the Department 
of State hired more than 250 additional passport adjudicators in the 
past year and will hire an additional 86 this year. This month alone, 
49 new passport adjudicators began work. The National Passport Center 
(NPC) is operating 24 hours a day in three shifts per day; all 16 
passport agencies are working overtime to get passports out to 
applicants as quickly as possible. In April, the Department of State 
will increase its passport issuance infrastructure with the opening of 
a ``mega-processing'' center in Hot Springs, Arkansas, which will have 
the capacity to produce as many as 10 million passport books annually.
Future Enhancements to the Visa Process
    The Department of Commerce figures show that we experienced the 
highest number of international arrivals in 2006 since 2000 and project 
that 2007 international visitor levels, at 52.9 million, will surpass 
the 2000 record. Those figures are good news, and we welcome them. Yet 
we are still not satisfied. To continue to meet the demand for visas, 
to continue to keep our national welcome mat out, and to continue to 
facilitate legitimate international travel, we want to introduce 
additional enhancements.
    We plan to introduce several changes over the next 2 years. Many of 
these innovations--on which we have been working for many months--
parallel suggestions made by the U.S. Travel and Tourism Advisory Board 
(TTAB), the Discover America Partnership, and others. Please allow me 
to describe these changes in detail.
Reducing Visa Appointment Wait Times
    For those travelers who require a visa, the wait to get an 
appointment can impact short-term travel plans. Despite the explosive 
demand I described earlier, nearly 90 percent of our 219 visa-issuing 
posts currently have average wait times of 30 days or less, and at a 
large majority the wait time is less than 1 week.
    Many of the overall changes we've already introduced to streamline 
the visa process have helped to keep down wait times. We are employing 
customized solutions to tackle situations in particular countries with 
persistent and unacceptably high appointment wait times. In October 
2006, for example, we sent a team of experienced current and retired 
officers on temporary duty to India to help the consulates there 
process a backlog of appointment requests, reducing wait times from 
over 100 days to less than 10. Since that effort, appointment wait 
times have begun to gradually increase again. We view this as a 
positive sign, indicating that visa applicants who might have in the 
past been deterred by the appointment wait time are now choosing to 
apply for visas. A fresh wave of temporary duty support is currently in 
India assisting posts to manage the continued heavy workload.
    ``Surges'' such as we employed in India can be useful in tackling 
short-term situations, and we may use them in other places. They aren't 
a viable long-term solution in places with structurally high visa 
demand. We need to consider and implement other approaches.
Aligning Consular Assets To Meet Demand
    We must ensure that we have our consular assets appropriately 
deployed where we need them, so that we can provide consistent, timely, 
quality consular services to our clientele.
    After careful analysis of detailed workload figures submitted by 
posts, and considering other factors that impact workload and 
productivity, such as the fraud environment and physical plant, we have 
concluded that consular sections in several regions are understaffed to 
meet current and anticipated workload, while posts in other regions are 
overstaffed.
    To correct the imbalance, the Bureau of Consular Affairs plans to 
transfer approximately 30 consular positions from overstaffed to 
understaffed posts and create 22 additional positions. Most of these 
will be entry-level positions, although some mid-level positions will 
be included as well. There will be gains and losses at posts in all 
bureaus, but we anticipate net gains at certain posts in Asia and the 
Western Hemisphere--places like India, China, Brazil, and Mexico. Most 
of the transfers will come from European posts.
    We have begun this repositioning exercise and expect it to continue 
over the coming two to 3 years, in order to provide time to create the 
positions and identify suitable officers, ensure there is adequate 
space to accommodate new personnel, and minimize the disruption to 
posts that are identified for position transfers.
    We will open additional consular facilities in key countries. The 
Department of State has obtained funding to open a fifth consulate in 
Hyderabad, in southern India. A team led by Under Secretary for 
Management Henrietta Fore was in Hyderabad earlier this month to 
inspect the proposed site. We hope to be able to open a consulate in 
Hyderabad, to include the provision of visa services, in FY 2008.
Technological Improvements
    The Bureau of Consular Affairs exploits advanced technologies to 
automate consular processes wherever possible. This promotes security 
and efficiency by reducing or eliminating data entry, printing, 
shipping, storage, and filing burdens on our posts worldwide. Our 
strategy for meeting our visa demand challenges includes exploring how 
technology can provide consular officers with the information to make 
more rapid and accurate decisions and to collapse the distance between 
the consular officer and the traveler.
    Building on the successful and widespread use of the EVAF, we 
anticipate moving to an entirely paperless, electronic visa application 
process by the end of 2007.
    Current law and regulations require the incorporation of biometrics 
in all U.S. visas and the State Department meets this requirement by 
collecting two fingerprint scans from each visa applicant. The prints 
are verified against interagency databases to screen for terrorists and 
others who may be ineligible for a visa. Two fingerprint scans provide 
a limited amount of data, and our experience is that they yield a large 
number of ``false positive'' results, which can delay the visa process 
and inconvenience legitimate travelers. Ten fingerprints provide a 
greater number of data points and much more accurate responses, 
allowing us to more broadly screen individuals to better verify 
identity and ensure that the individual does not pose a risk to 
security prior to travel to the United States. We are piloting the 
collection of ten fingerprints at five posts (London, San Salvador, 
Riyadh, Dhahran, and Asuncion) and plan to deploy this technology at 
every post by the end of 2007.
    We are also exploring other technological developments, such as 
remote data collection and visa adjudication and interviews via digital 
videoconference. Pilot tests of remote data collection at several 
locations in the field (U.K., Germany, Japan, and Samoa) demonstrated 
that the technology is not yet fully mature. We must address technical 
issues concerning data transmission and security, as well as legal 
issues, before we are able to incorporate remote adjudication into a 
workable visa system.
    Similarly, although we have successfully tested interviews via 
digital videoconference between London and Belfast, there are 
considerable technical and security issues to resolve before we can 
consider wider application of this technology--including, for example, 
ensuring that the video image on the screen and the fingerprint data 
sent in remotely belong to the same applicant. We will continue to 
explore the possibilities of this and other technologies for our 
ability to provide remote visa services and for improving visa services 
overall.
    In February 2007, the Bureau of Consular Affairs established a 
worldwide customer service standard by which every nonimmigrant visa 
applicant at any post should be scheduled for an appointment within 30 
days. The customer service standard for students and U.S.-interest 
business visas is 15 days or less. In addition, all applicants who are 
found eligible for a visa and who do not require additional security-
related processing should expect the visa to be issued within 3 days of 
the interview. As I previously noted, we already meet these standards 
at the majority of our posts. Our goal is that by the end of 2008, 100 
percent of posts will be able to meet this 30-day appointment 
benchmark.
    To achieve this goal, posts have been instructed to conscientiously 
update appointment wait times. The Bureau of Consular Affairs will 
continue to monitor appointment wait times closely. We will work with 
posts that approach or exceed the benchmark to refine internal 
management practices and devise solutions, and we will consider the use 
of temporary duty assistance when warranted.
Public Diplomacy: Dispelling Misperceptions
    Despite the initiatives we have taken, despite the U.S. visa 
issuance and demand numbers, and despite the international visitor 
figures, there is still the perception in some quarters that the visa 
process discourages travelers from seeking to come to the United 
States. In some cases, that perception is borne of the small number of 
cases where travelers encounter real difficulties. In many cases, 
however, it is fueled by stories in the media which rely on outdated 
statistics or anecdotes that do not reflect current realities. I regret 
this very much, particularly given what has been done by my colleagues 
at the Department of State and at embassies and consulates overseas.
    We need to dispel misperceptions. We have been doing so with an 
aggressive public outreach campaign. Assistant Secretary of State for 
Consular Affairs Maura Harty has spoken to a number of business 
audiences over the past 2 years, and she takes every opportunity to 
reach out to international audiences during her official travel 
overseas. Most recently, she addressed the Istanbul Chamber of Commerce 
on March 5, and in February she spoke to the American Chambers of 
Commerce in Shanghai, Guangzhou, and Macau regarding our efforts to 
facilitate legitimate tourist and business travel to the United States. 
She has published letters to the Editor on the same subject which have 
appeared in outlets such as The Economist and The New York Times. We 
raise this important issue at every opportunity during our extensive 
domestic outreach program. Ambassadors and other officials lead our 
outreach efforts overseas, speaking to business and student groups and 
placing op-ed articles in local newspapers to encourage travelers to 
consider travel and study in the United States.
    We have also consulted closely with the travel community over the 
past 3 years to take their concerns into account and solicit 
suggestions on how we can improve the visa process without compromising 
national security. A ``Secure Borders, Open Doors'' Advisory Committee, 
composed of government and travel community representatives and 
established under the Rice-Chertoff Joint Vision, held an inaugural 
meeting on December 6, 2006, to devise strategies to get our message 
out to legitimate travelers: America wants you and we welcome you.
    Mr. Chairman, our efforts to facilitate legitimate travel to the 
United States while protecting the security of this Nation will 
continue. Improving America's welcome for foreign visitors, and 
countering lingering misperceptions about that welcome, will require 
joint efforts by both government and private stakeholders. We look 
forward to working with business groups and our partner agencies toward 
that goal. In the meantime, we will ensure that our welcome begins with 
an efficient, accessible, and secure visa process.

    Senator Dorgan. Mr. Edson, thank you very much. Let me ask 
a couple of questions and then call on my colleague, Senator 
Inouye, the Chairman of the full Committee.
    First, Mr. Estrada, you indicated that there's good news 
and I don't want to dismiss good news at all. I think all of us 
should take a look at areas where we succeed and areas where we 
fall short and fix those areas where we fall short and 
encourage those where we succeed.
    But, you started by talking about the international tourism 
here as robust and increasing, and so on. The testimony by Rex 
Johnson, the President and CEO of Hawai'i Tourism Authority--
says this, ``Please note reports that say international travel 
to the U.S. is increasing are misleading. When you remove 
Canada and Mexico, and look solely at overseas travel, the 
number of visitors is declining and doing so precipitously. 
According to figures from the Department of Commerce in 2006, 
inbound travel declined from each of America's top five 
markets.'' And, from the Discover America Partnership, ``Since 
2001, the U.S. has experienced a 17 percent decline in overseas 
inbound travel. Between 2004 and 2005, the U.S. witnessed a 10 
percent decline in business travel, while Europe experienced an 
8 percent increase. Recent monthly reports by the Department of 
Commerce show a steady decline in travel of Western Europeans 
to the U.S.''
    So, let me reconcile the hopeful, optimistic report with 
this issue. My understanding has been that we have lost a 
portion of our share of international travel, so, can you 
respond to that Mr. Estrada?
    Mr. Estrada. Yes, sir. The issue here, is that eight of the 
ten markets have also declined, while at the same time, there's 
more competition for international travelers with other markets 
growing as well. So, we are competing with those other markets, 
while at the same time, markets where we have traditionally 
received visitors have also declined as well. This would 
include not just Canada and Mexico, but it would also include 
markets such as France and Spain and Russia, as well.
    Senator Dorgan. But, is it your notion that the pie itself, 
of international travel, is decreasing, you say. Is it your 
notion that our share of that is about the same, or increasing, 
or is our share of international travel down since 2001?
    Mr. Estrada. I would acknowledge that our share of overseas 
travel has, indeed, declined. But, at the same time, putting it 
in context with other markets, where markets have also 
declined, as well.
    Senator Dorgan. Right. Obviously, that pushes the question 
of, should we, can we, will we, develop a more significant 
effort as a country to reach out and, not only welcome, but 
encourage international travel to our country? I mean, 
obviously a part of that would be with the Commerce Department. 
Ten years ago or so, we had an agency in the Commerce 
Department for that very purpose, that was disbanded, but, I 
think that much of the discussion here with those of us on this 
panel and others will be, what can we do, then, to reach out to 
try to recapture some of that?
    Mr. Jacksta, can you tell me the Model Ports experience? 
You have announced a Model Ports program at Washington, Dulles, 
and Houston. Can you tell us the results of that, at this 
point, or what the status is?
    Mr. Jacksta. Yes, sir. Right after the announcement of the 
Rice-Chertoff Model Port Initiative, Dulles Airport and Houston 
Airport were selected. And, based on that selection, CBP, DOS, 
and DHS reached out to the airport authorities and asked them 
to work with us. We've had a number of meetings with both the 
Houston and Dulles Airport authorities and with the big 
carriers that provide service there: Continental Airlines, 
Lufthansa, and United. We sat down with them and had a number 
of conversations on what were some of the things that we could 
do to improve that process.
    We actually had individuals from the private industry there 
also, suggesting some things that we could possibly use for 
sending the message out to the traveling public advising them 
of what the message should be, and how they can help themselves 
be facilitated through the process.
    We also worked with various organizations to figure out 
what's the best way to get the message out. As a result of 
those discussions, we are now moving forward with a video that 
will be shown to arriving travelers as they wait in the queue 
for their immigration processing. And what that video is going 
to do, is explain to them the process, and explain to them some 
of the requirements that they're going to have to meet, but 
also let them know what's the next steps are after they go 
though the immigration processing, claiming your bags, and 
going out. Trying to make the person feel welcomed, and also 
making sure that they understand there's a process that needs 
to be gone through to get in the United States.
    We're also improving on the signage, we're improving on the 
messaging that we're getting out. We're working with the 
airport authorities to provide additional interpreters to help 
us with translations. And, we're also working on taking a look 
at what other types of professionalism training can we deliver 
to the people there.
    Senator Dorgan. Mr. Edson, what can you tell us about the 
issue of visas and, you indicate that substantial progress has 
been made in reducing wait times. Are there some outliers still 
out there that you're concerned about? Because with the 
testimony from some indicating that there are some people in 
some countries that are deterred, or at least are sort of 
overwhelmed in terms of trying to get a visa just by the wait 
times, are there some problem areas, and if so, where are they?
    Mr. Edson. Certainly, there are, we monitor the wait times 
on an ongoing basis and look particularly at any place that has 
a time--a wait of more than 30 days.
    The countries that have had the largest, the most explosive 
growth, in particular, India--historically China, but not for 
the past 6 months--China, Brazil, and Mexico are places where 
we're always watching to see that we are able to keep up. 
Brazil and India, India right now, because of a dedicated push 
over a 6-month period where we've actually redirected resources 
from elsewhere in the world. We've been able to get those wait 
times down. Brazil and Mexico are still fairly high.
    Senator Dorgan. What are the wait times in Brazil and 
Mexico and India? Do you know?
    Mr. Estrada. As of yesterday, we picked some Brazil places. 
Rio was 44 days, Sao Paolo was 79 days, and Recife was 83 days. 
Brasilia is under 30 days.
    Senator Dorgan. What will be done, for example, to reduce 
the Sao Paolo, 79 days, you said? That's a rather lengthy time.
    Mr. Edson. Right. It a--we're trying to address it with a 
combination of redirecting resources, identifying people we can 
send for temporary duty, expanding the work day, looking at 
additional facilities, and more creative processing models, 
when they're possible, either practically or under the law. A 
combination of that, and fundamental examination of the visa 
process with our colleagues at DHS, to look at areas where we 
might be able to securely process in a more streamlined manner, 
without compromising at all on the security.
    Senator Dorgan. Mr. Martinez-Fonts, we had testimony from 
the Discover America Partnership at the last hearing.
    Mr. Martinez-Fonts. Yes, sir.
    Senator Dorgan. Have you been in touch with that 
organization? Have you had consultation with that organization?
    Mr. Martinez-Fonts. Yes, sir. We are quite familiar with 
the group. We have been in constant and regular communication 
with them from the time that they began their process of 
preparing their information.
    We were somewhat saddened that they did not share their 
information with us as they had promised us some time before. 
They came to the Rice-Chertoff Initiative meeting, it was an 
open meeting, and they were there and listened to a lot of what 
we were doing. And despite some of that information, some of 
the things they put on their report was not, did not really 
include what we were saying.
    But, we have had a very, I'll call it, a very cordial 
relation, a very respectful relationship, with that group, 
despite the fact that we don't feel they're sometimes wanting 
to listen to some of the things that we have to say. But, we 
know them well, we work with them, and I think we've got the 
same goal, so, we're trying to get it done.
    Senator Dorgan. There's a natural tension here, with 
respect to goals, which I think all of us understand: the need 
to make certain that we secure our borders, keep terrorists 
out, and at the same time, that we welcome international 
visitors. I think at the last hearing, someone was making the 
point that when you process massive numbers of people moving in 
and out of lines and so on--we have companies, theme parks, and 
others that do that routinely, that, they have got it down to a 
science and maybe some training from the people that do this 
would be helpful. And yet, I understand that if someone's in a 
theme park waiting in line for a ride, you're not trying to 
figure out which one of those people might be a terrorist. It's 
a very different kind of circumstance that we're trying to 
understand here.
    So, the Federal agencies have a significant role in: (a) 
protecting our country, but (b) at the same time, facilitating 
an opportunity for people around the world to come and visit, 
and see and experience this country of ours. It's a very 
important thing to have happen, the second piece. The first 
piece is paramount, as well, but there's kind of a natural 
tension there that we're trying to resolve. How do we get this 
right?
    Let me call on my Chairman, Senator Inouye.
    The Chairman. Mr. Chairman, I thank you. I have a whole 
load of questions, but I will ask a few.
    Mr. Estrada, soon after 9/11 we developed, and established, 
the Advisory Board. And last September's Advisory Board issued 
recommendations. My question, number one, is the Board working? 
Number two, what do you intend to do with the recommendations?
    Mr. Estrada. Senator Inouye, I believe that the Board is 
working very well. It receives the highest level of attention 
from the Secretary all the way down throughout the 
organization. And, the information that has been shared from 
the Travel and Tourism Advisory Board, has been transferred 
into the Tourism Policy Council, which the Secretary chairs. 
And, the Council is in the process of reviewing those 
recommendations.
    The Chairman. So, none have been carried out?
    Mr. Estrada. Certain recommendations have been discussed 
within the interagency process with our colleagues here at the 
Department of Homeland Security and at the State Department.
    The Chairman. Are these recommendations practical?
    Mr. Estrada. I think there are some parallel goals within 
what we've seen within the private sector report, such as the 
Discover America Partnership or, the recommendations were in 
the areas of visa processing, and with the other areas, as 
well, involving Homeland Security and State. So, those have 
been discussed and are in the process of being----
    The Chairman. Will you submit to the Committee a report on 
the status of these recommendations?
    Mr. Estrada. We would be happy to, Senator.
    The Chairman. Mr. Jacksta, you spoke of the trusted 
traveler. Is it working?
    Mr. Jacksta. Yes, sir. We believe very strongly that it's 
an important part of our effort to get individuals who travel 
across the border on a frequent basis and are low-risk. There 
is a process that they have to go through to apply. We do a 
background and fingerprint check of them, and, we have our CBP 
officers actually interview the individuals. Once all those 
processes have taken place, we give them an expedited lane at 
select land border locations. That allows the vehicle to come 
up and, based on information we already have in our systems, we 
can facilitate a greater number of vehicles in a shorter amount 
of time than the regular lines, in which we have to stop, 
identify, and look at the documentation. So, it's a successful 
program.
    To make sure it continues to be successful, we have what we 
call ``compliance checks.'' Individuals are randomly selected 
and we do an inspection to ensure those individuals are not--
because of the fact that they're in the trusted program--of the 
belief they can go right through and possibly bring contraband 
in. Every once in a while, sir, we do catch people through 
these compliance checks.
    The Chairman. We've been advised that a similar type of 
program will be instituted for American travelers traveling 
within the United States. When will that be implemented?
    Mr. Jacksta. Sir, that's an important program that we want 
to implement for international travelers coming into the United 
States, U.S. citizens at the airports, and the domestic 
airports in the U.S. We are working with the DHS to figure out 
exactly how we're going to move forward with that program, as 
well as the funding, and fees necessary for those individuals 
to participate in the program.
    And, that's being done right now. I know DHS believes it's 
an important part of the effort, and it's also an important 
part of the Model Port concept. So, I hope, in the next couple 
of months, sir, to be able to provide information to DHS so 
that they can move forward with the program.
    The Chairman. I go through security on every trip I take 
back to Hawaii or within the United States. And, in my case, I 
find that about 70 percent of the time I get stopped and 
searched. Is that the usual?
    Mr. Jacksta. Sir, I think you're speaking specifically 
about the Transportation Security Administration (TSA) 
requirement. And, I don't want to talk about the TSA 
requirement since I don't know exactly how their program works. 
But, if we need additional information, we can get back to you 
on it, sir.
    The Chairman. I don't mind that, but my question to anyone 
of you, how do our security requirements compare with those of 
our friends abroad? Do Americans have a difficult time getting 
through their lines? Do British citizens have a difficult time 
getting through?
    Mr. Jacksta. We continue to have discussions with other 
governments on exactly what processes they have in place. We 
want to exchange best practices. The travelers going to these 
foreign locations at certain times, I would assume get stopped, 
depending on what country they're coming from, based on risk 
management--who are the individuals, where are they coming 
from, and for what purpose? We use that type of risk management 
also, in the United States, making a decision, looking at the 
documentation. That's why we feel very strongly that WHTI and 
requiring specific documents for travel through our ports of 
entry is extremely important.
    So, it's looking at the entire process; looking at the 
documentation; looking at the traveler; where he is coming 
from, and looking at the visa information that may be 
collected. We'll continue to discuss with other governments the 
best way to process travelers.
    Mr. Martinez-Fonts. Chairman Inouye, if I may just add 
something, that there are two sides to not so much the story, 
but TSA is doing the checking up-front as you're getting on the 
airplane, CBP if you're an international traveler. And, your 
question about how other international, how other countries 
handle this. From purely personal experience, traveling on 
government business to Europe, primarily, I would say it's a 
mixed bag. A place like Frankfurt on getting on an airplane, 
it's extremely, extremely thorough, much more so than I've 
seen. People being asked to remove articles of clothing as 
they're going through the line because it keeps beeping. On the 
way in, in some places, again, as Mr. Jacksta said, they take a 
look and do an assessment and if your name comes up clean or 
you're cleared then they let you through--but it's really, 
different countries are doing it different ways. And, I'm not 
sure that there is, you know, we could say, here's a place 
that's doing just a great job. And, there are two sides to it, 
getting on the airplane and then arriving in a country.
    The Chairman. I thank you very much, Mr. Martinez-Fonts.
    Mr. Edson, of the thousands of visas that you have issued, 
what percentage have been issued to men and women who later 
turned out to become questionable?
    Mr. Edson. Questionable from a national security sense?
    The Chairman. Yes.
    Mr. Edson. I would have to report back for the record with 
a number, but it's extremely small. It would only occur in 
cases where derogatory information became known to the U.S. 
Government subsequent to visa issuance. And, we now have 
processes in place that go back and proactively search our 
database of issued visas to match it against watch list 
information to ensure that that doesn't occur. Or when it does 
occur we can revoke the visa and flag the traveler for DHS and 
other law enforcement agencies.
    The Chairman. So, you have found that your program is 
successful?
    Mr. Edson. We believe that it's successful, yes.
    The Chairman. Well, I thank you all very much. I'd like to 
submit my questions.
    Senator Dorgan. Without objection.
    We've been joined by our colleague, Senator DeMint, the 
Ranking Member on this Subcommittee. Senator DeMint, welcome. 
We've just finished hearing from the first panel and are about 
to call up the second panel.

                 STATEMENT OF HON. JIM DeMINT, 
                U.S. SENATOR FROM SOUTH CAROLINA

    Senator DeMint. I apologize for being late. Could I just 
have one question----
    Senator Dorgan. Of course.
    Senator DeMint.--for Mr. Estrada? I know in a lot of our 
discussions, we're looking at how we might possibly fund an 
increase in our effort to improve tourism here. And, it is my 
understanding that the Administration's position is against 
additional taxes or fees that would involve travelers or 
businesses. Is that the position?
    Mr. Estrada. Yes, Senator. It is correct.
    Senator DeMint. OK, thank you.
    Senator Dorgan. Let me thank all four of you for being here 
today, and we will submit some additional questions for the 
record. And, we appreciate your work. Thank you very much.
    As you depart, we will call on panel two. Panel two 
consists of: Mr. Rex Johnson, President and CEO of Hawaii 
Tourism Authority, Mr. Ron Peck, President and Chief Operating 
Officer, Alaska Travel Industry Association; David Borlaug, 
President, Lewis & Clark Fort Mandan Foundation; Mr. Chad 
Prosser, the Director of the South Carolina Department of 
Parks, Recreation, and Tourism.
    If we could have you come forward and take your seats, we 
would appreciate that. I'm going to invite my colleague, 
Senator Inouye, to introduce Mr. Rex Johnson from Hawaii as our 
first presenter on this panel. I want to welcome all four 
who've traveled to Washington, D.C. to join us at this hearing. 
And, Senator Inouye, would you wish to introduce Mr. Johnson?
    The Chairman. Thank you very much. Mr. Johnson is an 
extraordinary citizen of Hawaii. He joined the Tourism 
Authority in July of 2002. Prior to that, he was with the 
University of Hawaii, part of the research programs. And, then 
he got into the Nature Conservancy of Hawaii, then one of the 
top officials of State Transportation and Hawaii Community 
Development Authority. So, if you're talking about someone with 
experience, he's got it. And, he has made us, well, as a result 
of his work, we have the lowest unemployment in the United 
States.
    Senator Dorgan. Mr. Johnson, thank you for being with us. 
We've always thought that the tourism promotion for Hawaii 
rested with Senator Inouye----
    [Laughter.]
    Senator Dorgan.--here in the U.S. Senate, but obviously 
there are others working on it as well. We welcome you.

STATEMENT OF REX D. JOHNSON, PRESIDENT AND CEO, HAWAI`I TOURISM 
              AUTHORITY, HAWAII CONVENTION CENTER

    Mr. Johnson. There are a whole lot of people working on it. 
Thank you very much, Mr. Chairman, Chairman Inouye, members.
    I am Rex Johnson, and I'm flattered by the introduction. As 
background, I'm also a member of the USTTAB and I serve as 
Secretary of the Western States Tourism Policy Council, a 
consortium of 13 western state tourism offices, that work 
together to support public policies that enchance the positive 
impact of tourism on the American West.
    Since 1976, tourism has been Hawaii's number one industry. 
It currently provides one in every four jobs in the state, 
produces $12.4 billion or approximately 23 percent, of the 
state's gross state product, and contributes about $1.3 billion 
tax revenues to the state and county government.
    International visitors contribute $4 billion of this amount 
and account for about 32 percent of the visitor arrivals. From 
a marketing perspective, the HTA spends approximately $50 
million annually in marketing programs designed to support a 
healthy tourism economy.
    The programs support advertising, promotion, public 
relations, trade relations, and other marketing efforts in our 
major market areas of North America, Japan, other Asia, which 
is everything except Japan in Asia, Europe, and Oceania.
    Unfortunately, the condition of Hawaii's international 
tourism markets has weakened over the years. Travel to Hawaii 
from some international tourism markets has fallen by 50 
percent from their peak periods. Easing international travel 
into the United States would provide a significant benefit for 
Hawaii tourism. The expense and difficulty of obtaining visas 
has had a negative impact on markets such as Korea and Taiwan, 
which have declined with the imposition of stricter travel 
policies. In this regard, we particularly commend the Senate 
for recently approving the recommendations of this Committee, 
which will strengthen and expand the Visa Waiver Program.
    A recent survey by the Discover America Partnership, 
revealed that international travelers believe the U.S. has the 
world's worst entry process. This perception creates a 
significant disadvantage for the U.S. in its efforts to compete 
for world travelers.
    As pointed out in the Discover America Partnership, 
travelers from America's top-source countries are either 
declining significantly or failing to keep pace with the 
sizable increases in travel to other destinations.
    There are many reasons for this decline, including the 
increased and enhanced travel restrictions related to 
understandable homeland security concerns, as well as greater 
competition from destinations abroad for the international 
traveler. Another reason is the fact that today, nearly every 
industrialized country in the world--with the exception of the 
U.S.--has a nationally-coordinated program designed to promote 
its destination to international travelers. It's imperative 
that the U.S. implement its own nationally-coordinated public-
private marketing campaign in order to be competitive with 
these countries.
    And that brings me to my final point, the need for the U.S. 
to develop a national tourism strategy to compete for a greater 
share of the growing travel and tourism market. That's the 
intent behind the U.S. Travel and Tourism Advisory Board 
recommendations and the Discover America Partnership Blueprint. 
I would be remiss in not also emphasizing that another benefit 
of the nationally-coordinated marketing program for 
international tourism would be to enhance the image of the 
United States around the world. Nothing will contribute more to 
the positive view of our Nation among the world citizens, than 
the personal experience of visiting here, meeting face to face 
with our wonderfully hospitable and welcoming citizens, and 
experiencing American culture and values first-hand. At a time 
when our Nation's international image has fallen, tourism could 
dramatically help reverse those attitudes.
    I'd like to thank you very much for the opportunity to 
provide these comments.
    [The prepared statement of Mr. Johnson follows:]

       Prepared Statement of Rex D. Johnson, President and CEO, 
          Hawai'i Tourism Authority, Hawaii Convention Center
    Good morning, Mr. Chairman and members of the Committee. I am Rex 
Johnson, President and CEO of the Hawai'i Tourism Authority (HTA), the 
official tourism agency for the State of Hawai'i. It has been my 
pleasure to serve Hawai'i in this capacity for the past 3 years.
    For your information, I am also a member of the U.S. Travel and 
Tourism Advisory Board (USTTAB), which serves in an advisory capacity 
to the Secretary of Commerce. In addition, I serve as Secretary of the 
Western States Tourism Policy Council (WSTPC), a consortium of 13 
western state tourism offices, that work together to support public 
policies that enhance the positive impact of tourism on the American 
West.
    On behalf of the State of Hawai'i and the twelve other WSTPC member 
state tourism offices, I am pleased to be here today to provide 
testimony on opportunities to enhance and promote international travel 
to the United States. To clarify, my testimony will be composed of 
three parts.
HTA's Efforts To Promote Travel To Hawai'i
    First, is the Hawai'i Tourism Authority's (HTA) efforts to promote 
travel to Hawai'i. To begin, I would like to state the importance of 
tourism to Hawai'i. Since 1976, tourism has been Hawai'i's number one 
industry. As the chief generator of employment in Hawai'i, tourism 
currently provides about one in every four jobs in the state in direct 
travel-industry jobs or in indirect employment. Hawai'i's travel and 
tourism industry also produces $12.4 billion, or approximately 23 
percent of the state's gross state product, and contributes $1.3 
billion tax dollars to the state and county government, or 23.2 percent 
of total state and county tax revenues.
    From a marketing perspective, the HTA spends approximately $50 
million annually in marketing programs designed to support a healthy 
tourism economy. The programs support advertising, promotion, public 
relations, trade relations and other marketing efforts in our major 
market areas of North America, Japan, other Asia (excluding Japan), 
Europe and Oceania. Our efforts cover a variety of markets, including 
meetings, conventions and incentive travel in the business sector; 
weddings and honeymoons, leisure travel, cultural tourism, and other 
markets related to vacation travel. While Hawai'i tourism in total 
generates $12 billion in visitor spending annually, international 
visitors contribute about $4 billion of this amount and account for 
approximately 32 percent of visitor arrivals.
    Unfortunately, the condition of Hawai'i's international tourism 
markets has weakened over the years, due in many respects to the issues 
outlined in the USTTAB white paper which I will talk about shortly and 
in the blueprint that has been developed by the Discover America 
Partnership. Travel to Hawai'i from some international markets has 
fallen by 50 percent from their peak periods. These markets are 
strategically important to Hawai'i because they provide a stability and 
diversity to our visitor industry base and support other sectors of our 
economy such as retail and entertainment.
Federal Efforts That Would Aid State Tourism
    That brings me to my second point and that is, what the Federal 
Government can do to assist state tourism. For one, maintaining and 
expanding the Visa Waiver Program (VWP) is central to keeping the U.S. 
competitive for inbound international travel. Currently, more than two-
thirds of all overseas travelers enter the U.S. under the VWP. Easing 
international travel into the United States would provide a significant 
benefit for Hawai'i tourism. The expense and difficulty in obtaining 
visas has had a negative effect on markets such as Korea, and Taiwan, 
which have declined with the imposition of stricter travel policies. In 
this regard, we particularly commend the Senate for recently approving 
the recommendations of the leaders of this committee and other Senators 
and adding provisions to the 9/11 Commission Act, which will strengthen 
and expand the Visa Waiver Program. We will be urging the House of 
Representatives to concur with these Senate provisions.
    Additionally, the negative experience of international visitors 
going through our security systems is a deterrent for some to travel to 
the U.S. According to a June 2006 survey of international travel 
agents, 77 percent believe the U.S. is more difficult to visit than 
other destinations. A recent survey by the Discover America Partnership 
revealed that international travelers believe that the U.S. has the 
``world's worst'' entry process. This perception creates a significant 
disadvantage for the U.S. in its efforts to compete for world 
travelers. However, with more efficient access to our country and 
hospitality training for our security professionals, travel to the U.S. 
will definitely be easier to promote.
Recommendations Made by USTTAB and the Discover America Partnership
    Since 1992, America's share of the world travel market has fallen 
35 percent, despite a healthy boom elsewhere. The price tag for this 
loss is staggering--about $300 billion in revenue over the last 15 
years. In particular, since 2001, the U.S. has experienced a 17 percent 
decline in overseas inbound travel. In comparison, between 2004 and 
2005, the U.S., witnessed a 10 percent decline in business travel while 
Europe experienced an 8 percent increase. As pointed out in the 
Discover America Partnership Blueprint, travelers from America's top 
source countries are either declining significantly or failing to keep 
pace with sizable increases in travel to other destinations. The 
gravity of the situation is more significant in light of a U.S. dollar 
that is 30 percent cheaper than it was 5 years ago.
    Please note, reports that say international travel to the U.S. is 
increasing are misleading. When you remove Canada and Mexico, and look 
solely at overseas travel, the number of visitors is declining--and it 
is doing so precipitously. According to figures from the Department of 
Commerce, in 2006 inbound travel declined from each of America's top 5 
markets.
    There are many reasons for this decline, including the increased 
and enhanced travel restrictions related to understandable homeland 
security concerns, as well as greater competition from destinations 
abroad for the international traveler. Another reason is the fact that 
the U.S. is one of the only industrialized nations in the world that 
lacks a nationally-coordinated program to compete for world travelers. 
Today, nearly every industrialized country in the world, with the 
exception of the U.S., has a nationally-coordinated program designed to 
promote its destination to international travelers.
    For example, Australia spends $113 million dollars a year 
communicating and promoting itself to travelers, while Canada spends 
$58 million. In comparison, the Travel Industry Association (TIA) 
estimates that all the combined states together spend about $25 
million, but notes that many of the allocations are small. It is 
imperative that the U.S. implement its own nationally-coordinated 
public-private marketing campaign in order to be competitive with other 
countries in the dynamic new world market.
    A promotional program of this type could explain our travel 
policies to world travelers, highlight improvements in the process and 
invite millions more to enjoy the unique American experience every 
year.
    And that brings me to my final point--the need for the U.S. to 
develop a national tourism strategy to compete for a greater share of 
the growing travel and tourism market. That's the intent behind the 
U.S. Travel and Tourism Advisory Board recommendations and the Discover 
America Partnership Blueprint. Together, these documents provide well-
founded proposals to improve international travel to the United States 
that we fully endorse. The HTA, along with other state tourism offices 
and organizations, are especially supportive of a promotional program 
to establish a national image for the United States as a visitor-
friendly destination, while supporting improvements to security and 
entry formalities that ease the ability of visitors to enter our 
country.
    Without the benefit of a program establishing a national brand to 
promote visitation to the United States, some of our uncoordinated 
spending on international marketing is dedicated to diverse branding 
programs that, in other countries, would be initiated and focused by a 
national ministry of tourism. If we had the support of a national 
promotional program as envisioned by the U.S. Travel and Tourism 
Advisory Board and the Discover America Partnership Blueprint, our 
efforts would be much more effective, since the national program would 
create a ``visit USA'' brand and a better selling environment.
    Importantly, the development of a national strategy as outlined 
above would be immensely productive for all states, including Hawaii. 
As an example, the programs that would originate from this strategy 
could include creating a brand for America that is not just friendly 
and welcoming, but is also consistent with Hawai'i's ``aloha spirit.''
    I would be remiss in not also emphasizing that another benefit of a 
nationally-coordinated marketing program for international tourism 
would be to enhance the image of the United States around the world. 
Nothing will more contribute to a positive view of our Nation among the 
world's citizens than the personal experience of visiting here, meeting 
face to face with our wonderfully hospitable and welcoming citizens and 
experiencing American culture and values first-hand. At a time when our 
Nation's international image has fallen to unprecedented levels, 
tourism could dramatically help reverse those attitudes.
Conclusion
    In closing, I would like to thank you for the opportunity to speak 
with you today. On behalf of the HTA and my colleagues in the travel 
and tourism industry, we look forward to working with you, the Federal 
Government and others in support of the 9/11 Commission Act and other 
legislation that will enhance the competitiveness of our Nation in the 
global tourism market and help improve our international position.

    Senator Dorgan. Mr. Johnson, thank you very much. I'd like 
to call on my colleague, Senator DeMint to introduce Mr. 
Prosser, from South Carolina.
    Senator DeMint. Thank you, Mr. Chairman.
    Chad, I appreciate you being here and I want to thank you 
as Director of the South Carolina Parks, Recreation and Tourism 
for agreeing to testify this morning.
    Chad has been a real leader since he came onboard in 2003. 
He has led a restructuring effort that has streamlined the 
agency and he has worked with the Governor and State 
Legislature to secure additional resources for tourism 
promotion.
    Chad has also been an active member of the community and 
taken a leadership role in many charitable organizations in the 
state.
    So, Chad, I appreciate you coming up this morning and look 
forward to your testimony.
    Senator Dorgan. Mr. Prosser, welcome.

              STATEMENT OF CHAD PROSSER, DIRECTOR,

              SOUTH CAROLINA DEPARTMENT OF PARKS,

                     RECREATION AND TOURISM

    Mr. Prosser. Thank you.
    Senator DeMint. Chad, is your microphone on, did you push, 
is there a button to push?
    Mr. Prosser. Sorry. Can you hear it now? All right. Tourism 
is South Carolina's largest export, Mr. Chairman, contributing 
more than $16 billion annually to our economy. The industry 
accounts for 11 percent of our state's employment, and 
generates over $1.1 billion in tax revenue.
    As I mentioned, international visitation is a small portion 
of our overall tourism, but it's an important source of high-
value tourists. It's a real challenge for us to promote our 
products internationally, alone. We've seen modest growth in 
international visitation, but there's tremendous untapped 
potential.
    Mr. Chairman, you referenced the loss of market share. And 
this is particularly troubling, given the increase in outbound 
travel for many of our key markets, as well as the devaluation 
of the dollar, which has effectively put the United States on 
sale as a travel destination.
    According to the recent Discover America Partnership 
survey, we're losing market share because we lack a coordinated 
message to welcome international visitors. International 
visitors are concerned about being detained or treated rudely 
by U.S. immigration officials, and they perceive that the 
United States does not want their travel business. My own 
experience with international tour operators and visitors 
confirms this.
    Visualize a local restaurant. Now, let's assume the 
restaurant does not advertise it is open for business, it has 
no signage to indicate its location to potential customers, and 
the restaurant requires reservations, but has no one available 
to answer the phone when you call, so it's difficult to book 
one. Additionally, when by chance, customers come to the 
restaurant, the maitre d' is rude and asks why these folks have 
come. The restaurant might have the best food in town, and good 
service once you get past the reception desk, but it's unlikely 
to have a thriving business.
    This is the situation in which we find ourselves today in 
the travel business. In a world of choices, we cannot afford 
unnecessary obstacles to hinder our ability to compete. So what 
is the solution? When folks travel between states, they're 
greeted by state welcome centers. Unfortunately, our reception 
at international airports is less than welcoming. Security must 
remain paramount, but our Customs and Border Patrol agents can 
make positive differences in the process, appearance, and 
customer service that they offer our international visitors. We 
do this every day in state welcome centers.
    The Senate 9/11 bill and the Rice-Chertoff Initiative are 
positive steps. You should continue to monitor these 
initiatives and how they are implemented on the front line. 
Additionally, America must work deliberately to communicate 
that we welcome international travelers. You might ask why we 
need a nationally-coordinated program. The answer is simple. 
The tourism industry, while it's large in the aggregate, is 
made up of mostly small businesses. It's highly fragmented, and 
while you see the CEOs of major airlines or multi-national 
hotel groups representing the industry, 90 percent of the 
industry is small business.
    And, because tourism touches so many dissimilar 
enterprises, it's very difficult to coordinate joint programs 
among these small businesses. When thousands of diverse 
businesses are involved, only government can represent their 
collective interest on a large scale.
    A fascinating parallel can be drawn to the U.S. Small 
Business Administration. Why does this agency exist? According 
to the SBA, it's to preserve free competitive enterprise, 
building America's future, and helping the United States 
compete in a global marketplace.
    These are the exact reasons the Federal Government should 
be involved to help small tourism businesses compete globally. 
By supporting a nationally-coordinated marketing program, 
you're not subsidizing the marketing budgets of large 
corporations in the travel industry. Instead, you are leveling 
the playing field for thousands of small businesses, so that 
they can compete in a global market for tourists. The tourism 
industry can survive without Federal assistance, but the 
industry cannot thrive and reach its full potential without the 
Federal Government lending a helping hand.
    The right to travel freely has become a hallmark of 
American life and a cornerstone of our economy. Sharing that 
part of American culture with the world not only supports our 
diplomatic efforts abroad, but also works to strengthen 
prosperity at home.
    If I could take you back to that restaurant I spoke about 
earlier. Imagine the impact a few simple improvements could 
have on its business. Now, multiply that impact thousands of 
times to understand the potential impact on employment, tax 
revenue, and prosperity in our country.
    Let's put out our open sign, Mr. Chairman. Thank you.
    [The prepared statement of Mr. Prosser follows:]

             Prepared Statement of Chad Prosser, Director, 
       South Carolina Department of Parks, Recreation and Tourism
    Good Morning Mr. Chairman and members of the Committee. I 
appreciate the opportunity to appear before you today to discuss how 
the Federal Government might aid the states in growing America's 
tourism industry. I am the Director of the South Carolina Department of 
Parks, Recreation and Tourism. Because of South Carolina's coastline, 
freshwater lakes, mountains, and extraordinary culture, tourism is the 
state's largest export. Tourism contributes more than $16 billion 
annually to South Carolina's economy, accounts for 11 percent of the 
state's employment and generates over $1.1 billion in yearly state and 
local tax revenue.
    South Carolina is not alone in the prominent role that tourism 
plays in our state's economy. For many states, tourism ranks as one of 
the top three industries. Worldwide, tourism is the fourth-largest 
export industry after chemicals, automobiles and fuel. It is the 
largest service export, making up more than a 30 percent of world 
service exports and accounting for one out of every ten jobs around the 
globe. More importantly, tourism continues to grow steadily. Over a 
span of 25 years from 1975 to 2000, tourism grew by 4.6 percent per 
year compared with overall GDP growth worldwide of 3.6 percent. Tourism 
is a growing and healthy industry, but while the industry has continued 
to grow worldwide, visitation to the United States by overseas 
travelers has dropped 17 percent since 2001. This is particularly 
troubling given that outbound travel from many of our key overseas 
markets has increased, and the value of the dollar has decreased, 
effectively putting the United States ``on sale'' as a travel 
destination. For instance, outbound international travel from Europe 
grew by 3.2 percent last year. But travel from the United Kingdom to 
the United States declined by more than 3.7 percent from 2005 to 2006. 
The numbers are even worse for Germany, which is the second-largest 
overseas market for South Carolina after the United Kingdom. From 2000 
to 2005 travel from Germany was down more than 20 percent. It is clear 
that not only is the United States not reaping the benefits of a 
growing international travel and tourism market, we are losing ground 
to emerging destinations and other competitors.
    How, then, do we explain this loss of trade in the context of 
increasing international travel and a cheap dollar, factors which 
should contribute to growth? Data from a 2006 survey of non-U.S., 
international travelers conducted for the Discover America Partnership 
show that it is neither the product nor the people of the United States 
that deter international travel. Interestingly, this survey shows that 
72 percent of international visitors describe their time here as 
``great'' once they get beyond the airport experience.
    According to the Discover America Partnership survey, the reasons 
we are losing ground in the international travel market are related to 
the lack of an inviting message to let potential visitors know that 
they are welcome in the United States, along with the confusing, 
difficult and sometimes hostile entry process. The survey shows that 
most visitors are more concerned about being detained or treated rudely 
by U.S. immigration officials than they are about the threat of crime 
or terrorism. They fear that they will be detained for hours because of 
a simple mistake or misstatement at a U.S. airport. They also perceive 
that the United States makes little effort to attract visitors and that 
the U.S. Government does not want their travel business. I can tell you 
anecdotally from my own discussions with international tour operators 
and direct experience with international visitors that these are the 
primary deterrents keeping legitimate visitors away from our country.
    Visualize a local restaurant. Now, let's assume that this 
restaurant does not advertise that it is open for business and it has 
no signage to indicate its location to potential customers. This 
restaurant also requires reservations, but has no one available to 
answer the phone when you call so it's difficult to book a reservation. 
Additionally, when by chance customers come to the restaurant, the 
maitre d' is rude and questions why the customers have come to his 
restaurant. This restaurant might have the best food in town, and it 
might even offer great service once you get past the reception desk, 
but with all of the obstacles on the front end it's unlikely to have 
much business. This is the situation in which the United States finds 
itself today as a travel destination. In a world of choices we cannot 
afford unnecessary obstacles that hinder our ability to compete.
    So what is the solution? Here in our own country when travelers 
cross state borders they are greeted by state welcome centers. But when 
international visitors arrive at our airports, they are met by long 
lines leading to immigration desks. Of course immigration processing is 
necessary and security must remain of paramount importance; however, 
there are tools and techniques that Customs and Border Patrol agents 
could borrow from travel professionals to make the reception experience 
less unpleasant. Small improvements in process, appearance and customer 
service training could make a positive difference in the minds of 
visitors. Picture frontline immigration officers wearing a welcoming 
logo on their uniforms instead of a badge. Wouldn't that help visitors 
to feel more welcomed? Would it remind the agents that part of their 
job is to treat visitors courteously? I'm certainly not suggesting that 
our Customs and Border Patrol agents become travel counselors handing 
out brochures and giving directions. But the job of ensuring that our 
borders are secure can be done with the same welcoming attitude and 
professionalism that is displayed daily by those who work in our state 
Welcome Centers.
    The Senate 9/11 Bill and the Rice-Chertoff Initiative are positive 
steps. Congress should continue its efforts to make the entry process 
more welcoming and efficient while closely monitoring how these 
initiatives are implemented on the front lines.
    In addition to making it easier for legitimate visitors to enter 
our country, America must work deliberately to communicate that we are 
open for business and that we welcome international travelers. Sharing 
with an international audience the things that make this country 
special serves both the economic and diplomatic interests of our 
country. I support the recommendations of both the Discover America 
Partnership and the U.S. Travel and Tourism Advisory Board to 
reestablish a nationally-coordinated umbrella marketing program to 
enhance our national image and to ensure that American businesses can 
fully participate in the growing market for international tourism.
    Some have asked why a nationally-coordinated marketing campaign 
cannot be launched without the participation of the Federal Government. 
It's a natural question. I'm often asked the same question with regard 
to South Carolina's umbrella marketing campaign. The answer is simple. 
The tourism industry, while it is a large industry in the aggregate, is 
made up of mostly small businesses. It's highly fragmented. In fact, 
while you often see the CEO's of major airlines or multinational hotel 
groups representing the industry, nationwide 90 percent of tourism 
businesses are small and medium-sized, according to the U.S. Chamber of 
Commerce.
    In South Carolina, half of the tourism industry is comprised of 
small businesses. Because the tourism economy touches so many 
dissimilar enterprises, ranging from small inns and restaurants to gas 
stations and farms that give tours to visitors to supplement their 
income, it is very difficult to coordinate these businesses for the 
purposes of a mass cooperative marketing effort. In fact, it would not 
make economic sense for these businesses to contribute to a national or 
international marketing campaign. It's a great challenge even at the 
local level to coordinate the activities of these small businesses. 
Even among the large corporations or the state tourism organizations, 
there are not enough resources or common strategic interests to 
coordinate an umbrella marketing effort for the United States. South 
Carolina is a member of Travel South USA, which is the oldest multi-
state tourism marketing cooperative in the country. But even with the 
combined strengths of the twelve states that comprise Travel South, we 
are only able to focus on a portion of one international market, 
Canada, with mostly publicity and promotional efforts supplemented with 
a small amount of advertising limited to the Greater Toronto area. When 
thousands of diverse small businesses are involved, only government can 
effectively represent their collective interests on a national or 
international scale. It's a role that my department plays at the state 
level, and a role that the Federal Government should play at the 
national level.
    A fascinating parallel can be drawn to the U.S. Small Business 
Administration. Why does this agency exist? According to the SBA 
website, it exists to, among other things, ``preserve free competitive 
enterprise and to maintain and strengthen the overall economy of our 
Nation . . . building America's future and helping the United States 
compete in today's global marketplace.'' These are the exact reasons 
that the Federal Government should be involved in a nationally-
coordinated international marketing effort. Such an effort would allow 
the tourism industry as a collection of small businesses to combine 
their strengths in order to compete in the international marketplace. 
No single business or trade association alone can accomplish this 
without the coordination of the Federal Government. Small businesses 
are the backbone of America and they are the majority of the tourism 
industry. These businesses can compete for international travelers, but 
they need Federal cooperation to create a brand for America in the 
international marketplace.
    The predecessor agencies of the SBA were formed to respond to the 
special needs of small businesses following the Great Depression and 
World War II. During the Korean War, Congress created another 
organization to handle small business concerns. Do we not find 
ourselves in a similar predicament now in a post-9/11 world? I'm not 
suggesting that the structure of a nationally-coordinated tourism 
campaign mirror the scope of the SBA. However, we do need national 
coordination in our effort to counter the challenges that we face in 
today's global market for tourists.
    I'm not here to tell you that the sky is falling. In fact, South 
Carolina tourism is growing. Even our international visitation has seen 
modest growth over the last 5 years. In 2005, the last year for which 
data are available, South Carolina hosted more than 173,000 overseas 
visitors. As a state, 2 years ago we doubled our budget for 
international marketing. This increase was part of a strategic shift to 
attract more high-value visitors. International visitors are a 
particularly attractive market because of their long stays and high 
spending levels. South Carolina, however, is a second-tier market for 
most international visitors. We are a destination where international 
visitors come once they have visited New York City or the Florida theme 
parks. We have products such as golf, beaches and cultural experiences 
that are a very attractive to international visitors. But it is a real 
challenge for us alone to get that word out in a crowded global 
marketplace. Imagine how a small state like South Carolina could 
benefit if the United States once again had a nationally-coordinated 
marketing effort to drive travel here and to let the international 
consumer know about the diversity of product available in our country.
    It is important to realize that by supporting a nationally-
coordinated marketing program you are not subsidizing the marketing 
budgets of large corporations in the travel industry. Instead, you are 
leveling the playing field for thousands of small businesses so that 
they can combine their strengths in order to compete in a global market 
for tourists. The tourism industry can survive without assistance from 
Washington. We have proved that over the last decade since the closure 
of the United States Travel and Tourism Administration. But the 
industry cannot thrive and reach its full potential without the Federal 
Government lending a hand to do for the industry what it cannot do for 
itself. The tourism industry must participate in any national effort; 
however, the impetus for the program can only come from our government. 
Upon closer examination, the U.S. tourism industry is not big business, 
it is a large industry made up of predominantly small businesses. 
Therefore, assistance to tourism is assistance to American small 
business.
    Unlike many mature industries, we have only scraped the surface of 
the potential for the U.S. tourism. The right to travel freely and 
safely has become a hallmark of American life and a cornerstone of our 
economy. Sharing that part of American culture with the world not only 
supports our diplomatic efforts abroad, but also works to strengthen 
economic prosperity at home.
    Mr. Chairman, thank you again for the opportunity to share my 
thoughts with you today. I would be happy to respond to any questions 
that you might have.

    Senator Dorgan. Mr. Prosser, thank you very much. We 
appreciate you being here.
    Next, we will hear from David Borlaug. Let me just take a 
moment to say that David Borlaug is a North Dakotan. He's 
President of the Lewis & Clark Fort Mandan Foundation. But, 
that really understates what he has done.
    He is, I think, the leading spokesman in North Dakota and 
the leading worker in our region to enhance tourism. One of the 
great epic expeditions, I would say to my colleagues, in the 
history of our country, was the Lewis and Clark expedition and 
they spent more time--in fact they decided to winter in North 
Dakota--spent more time in North Dakota on that journey than in 
any other part of our country.
    And, Mr. Borlaug, both in our region and also nationally, 
has served in the leadership position on many of these issues. 
And, he speaks today as the President of the Lewis & Clark Fort 
Mandan Foundation and also on behalf of North Dakota's 
interest.
    Mr. Borlaug, thanks for you leadership, and we appreciate 
your being here today.

            STATEMENT OF DAVID BORLAUG, PRESIDENT, 
              LEWIS & CLARK FORT MANDAN FOUNDATION

    Mr. Borlaug. Well, thank you, Chairman Dorgan, Chairman 
Inouye, and Senator DeMint for inviting me here today. And it 
is an honor to represent both the Lewis & Clark Fort Mandan 
Foundation, and the State of North Dakota at this important 
hearing.
    Let me say at the outset that I join with other members of 
the travel industry, my colleagues here, in heartily endorsing 
the recommendations of the Discover America Partnership and the 
USTTA, which have been lobbying for the return of a centralized 
government-endorsed promotional entity to provide leadership in 
attracting international visitors to the United States.
    The specific recommendations of the Discover America 
proposal, in particular, are well thought out, prudent, and 
will result in a very effective organization dedicated to 
promoting travel to our country. It is my fervent hope that 
these recommendations will be given serious consideration in 
the Congress, and I thank you for thoughtfully considering all 
of these proposals.
    North Dakota, in spite of a tourism marketing budget that 
ranks among the lowest in the Nation, has been promoting itself 
to the international market for the past 15 years. With our 
limited resources, we have focused particularly on the 
Scandinavian countries. And as a result, North Dakota, I am 
proud to tell you, is now among the top five destinations for 
all Norwegian air travel.
    Two weeks ago, North Dakota joined with our neighbors 
Montana, Wyoming, and South Dakota, spending a week promoting 
the four-state region to the travel industry of Denmark and 
Sweden. One of the ways that we are showcasing our region is 
comparing our geographic size. Nearly two and a half times the 
size of Germany with our combined low population, barely larger 
than Copenhagen. This is what those Scandinavian visitors want 
to hear--that we offer a land of beauty with national parks and 
other tourist destinations, unspoiled by the traffic and crowds 
to which they are accustomed. What they are seeking, and what 
we offer in North Dakota and the other prairie and mountain 
states, is simply, the real America.
    Statistically, after foreign visitors have come to New York 
City, Disney World, Las Vegas, or any of our other leading 
attractions, they are eager to see another side of our country. 
A land that spreads out in front of them on the blue highway 
with a vastness that takes their breath away. A land with more 
than terrific scenery, but incredible stories to tell. In North 
Dakota, we call it, legendary. With Lewis and Clark, Sacagawea, 
General Custer, Sitting Bull, and Theodore Roosevelt among our 
cast of legendary historic figures, you can see the attraction 
we offer foreign visitors who are fascinated by the American 
West, the real America.
    When you make the decision to create a new centralized 
entity to promote international tourism, please include in its 
charter that it promotes all of the United States, not just 
those metropolitan areas which appear to have the greatest 
appeal. We all have something to offer these visitors, each in 
our own unique way.
    Not long ago, our Lewis & Clark Fort Mandan Foundation, 
which operates the North Dakota Lewis & Clark Interpretive 
Center and the reconstructed Fort Mandan, the expedition's 
winter home, as Senator Dorgan referred--we hosted travel 
writers from Norway, Sweden, Denmark, Germany, and France all 
within a 10-day period. These nation's travelers are hungry for 
information about our special part of America, and writers and 
photographers keep coming back because they just can't drink it 
all in during one visit.
    But, my nonprofit foundation cannot afford international 
marketing. We rely on our state tourism division, which has a 
total budget of only $4 million a year. However, we have made 
the most of our limited resources, and by joining with a 
coordinated national effort, we know that we can attract more 
and more visitors here.
    I was asked, in what specific areas the Federal Government 
may assist our efforts. Let me give you one request. The 
effectiveness of any marketing campaign is built upon good 
solid research. We must know what our best target market is, to 
maximize the utilization of resources. States need to better 
understand the habits and intentions of international travelers 
once they arrive on our shores. For years, our industry has 
been asking for data which will tell us where foreign travelers 
are headed after they have entered the key ports of entry. This 
information is gathered, but not made available to the states.
    If we could simply get this information, where people are 
going after they have entered our gateway airports, this would 
be extremely valuable in knowing where to target our messages. 
We are not asking to compromise national security. We are not 
asking for names and addresses, this is not about 
telemarketing. We just want the total numbers, by region. This 
seems a reasonable request for our industry to make, and one 
that I hope will be agreed upon soon.
    Thank you, again, for inviting me here today and for your 
commitment to America's travel industry.
    [The prepared statement of Mr. Borlaug follows:]

            Prepared Statement of David Borlaug, President, 
                  Lewis & Clark Fort Mandan Foundation
    Thank you, Chairman Dorgan and members of the Subcommittee for 
inviting me here today. It is an honor to represent the Lewis & Clark 
Fort Mandan Foundation and the State of North Dakota at this important 
hearing.
    Let me say at the outset that I join with other members of the 
travel industry in heartily endorsing the recommendations of the 
Discover America Partnership and the USTTA, which have been lobbying 
for the return of a centralized, government-endorsed promotional entity 
to provide leadership in attracting international visitors to the 
United States.
    The specific recommendations of the Discover America proposal, in 
particular, are well thought-out, prudent and will result in a very 
effective organization dedicated to promoting travel to our country. It 
is my fervent hope that these recommendations will be given serious 
consideration in the Congress. Thank you for thoughtfully considering 
these proposals.
    North Dakota, in spite of a tourism marketing budget that ranks 
among the lowest in the Nation, has been promoting itself to the 
international market for the past 15 years. With our limited resources, 
we have focused on Scandinavian countries in particular and as a 
result, North Dakota is now among the top five destinations for all 
Norwegian air travel.
    Two weeks ago, North Dakota joined with our neighbors Montana, 
Wyoming and South Dakota, spending a week promoting the four state 
region to the travel industry of Denmark and Sweden. One of the ways 
that we are showcasing our region is comparing our geographic size, 
nearly 2\1/2\ times the size of Germany, with our low combined 
population--barley larger than Copenhagen.
    This is what those Scandinavian visitors want to hear, that we 
offer a land of beauty with national parks and other tourist 
destinations unspoiled by the traffic and crowds to which they are 
accustomed. What they are seeking, and what we offer in North Dakota 
and the other prairie and mountain states is the real America.
    Statistically, after foreign visitors have come to New York City, 
Disney World, Las Vegas or any of our other leading attractions, they 
are eager to see another side of our country. A land that spreads out 
in front of them on the blue highway with a vastness that takes their 
breath away. A land with more than terrific scenery, but incredible 
stories to tell. In North Dakota, we call it Legendary. With Lewis and 
Clark, Sacagawea, General Custer, Sitting Bull and Theodore Roosevelt 
among our cast of legendary historic figures, you can see the 
attraction we offer foreign visitors, who are fascinated by the 
American West--the Real America.
    When you make the decision to create a new centralized entity to 
promote international travel, please include in its charter that it 
promotes all of the United States, not just those metropolitan areas 
which appear to have the greatest appeal. We all have something to 
offer those visitors, each in our own unique way.
    Not long ago, our Lewis & Clark Fort Mandan Foundation, which 
operates the North Dakota Lewis & Clark Interpretive Center and the 
reconstructed Fort Mandan, the Expeditions' winter home of 1804-05, 
hosted travel writers from Norway, Sweden, Denmark, Germany and France, 
all within a 10-day period. These nations' travelers are hungry for 
information about our special part of America, and writers and 
photographers keep coming back, because they just can't drink it all in 
during one visit.
    My non-profit foundation cannot afford international marketing on 
our own. We rely on our state tourism division, which has a total 
budget of only $4 million a year. However, we have made the most of our 
limited resources, and by joining with a coordinated, national effort, 
we know that we can attract more and more visitors here.
    I was asked what specific areas the Federal Government may assist 
our efforts. Let me give you one request. The effectiveness of any 
marketing campaign is built upon good, solid research. We must know 
what our best target market is, to maximize the utilization of 
resources. States need to better understand the habits and intentions 
of international travelers once they arrive on our shores.
    For years, our industry has been asking Homeland Security for data 
which will tell us where foreign travelers are headed after they have 
entered the key ports of entry. This information is gathered, but not 
made available to the states. If we could simply get this information, 
where people are going after they have entered our gateways airports, 
this would be extremely valuable in knowing where to target our 
messages. We are not asking to compromise national security. We are not 
asking for names and addresses. This is not about telemarketing. We 
just want the total numbers, by region. This seems a reasonable request 
for our industry to make, and one that I hope will be agreed upon soon.
    Thank you again for inviting me here today, and for your commitment 
to America's travel industry.

    Senator Dorgan. Mr. Borlaug, thank you very much.
    Finally, we will hear from Mr. Peck. Mr. Peck, you know 
that Alaska is well and aggressively represented on this panel.

           STATEMENT OF RON PECK, PRESIDENT AND COO, 
               ALASKA TRAVEL INDUSTRY ASSOCIATION

    Mr. Peck. Yes, I do, Senator, very much.
    Senator Dorgan. I emphasize, aggressively. Senator Stevens 
was intending to be here but could not. He spoke to the State 
Legislature, I believe, in Alaska yesterday----
    Mr. Peck. Correct, Senator.
    Senator Dorgan.--so he asked me to apologize for his 
absence, but we very much appreciate having you with us. And we 
would ask that you proceed.
    Mr. Peck. Thank you, Chairman Dorgan, and members of the 
Interstate Commerce, Trade, and Tourism Subcommittee. My name 
is Ron Peck. I am President and Chief Operating Officer of the 
Alaska Travel Industry Association or ATIA. I have served in 
this capacity for four and a half years and been employed in 
the visitor industry for almost 30 years.
    Tourism is very important to Alaska. It is the number two 
private sector industry in the state, directly contributing 
$1.5 billion to the economy, over $130 million in taxes will be 
contributed to the state this year, and we hire--we annually 
employ 40,000 people.
    ATIA is a broad-based coalition of over 1,000 visitor-
related businesses. We represent large and small companies, 
including bed and breakfasts, fishing lodges, cruise companies, 
airlines, and tour operators. We are a trade association that 
acts as an advocate on land-use planning and assessment issues. 
But ATIA is not a government agency, we are a nonprofit service 
organization. Our real main mission though, is to promote 
Alaska as a premier destination internationally, and 
nationally. We do this on behalf of the state through an annual 
contract.
    Prior to 2000, three distinct organizations did advocacy 
work and destination marketing for Alaska. Two of those 
agencies were government entities, one was a trade association. 
Overlap and inefficiencies existed. And, most importantly, 
funding for destination marketing fluctuated dramatically, 
declining from a high of $15 million in 1990 to $7 million in 
2000.
    A new, unique creative plan that involved private and 
public sector involvement was implemented. Essentially the 
three organizations were dissolved. The state reduced the 
Department of Tourism to an office and totally eliminated the 
second government agency. The former trade association was also 
dissolved. The idea was to consolidate, be more efficient, and 
increase effectiveness. We believe ATIA has done that with this 
unique marketing partnership.
    We are pleased with the level of private sector 
involvement. Thirty-five marketing experts and stakeholders 
volunteer to create and develop the annual marketing plan, that 
is then approved by the State of Alaska and implemented by ATIA 
staff.
    Again, the unique part of this relationship is that we've 
actually reduced government staffing levels, and increased 
private sector involvement at no cost to the state. Funding for 
the program is on a 50/50 match basis with the state 
contributing $5 million and private sector matching that, which 
allows for a core marketing program of $10 million.
    But, I must say, due to recent new taxes on our visitor 
industry in Alaska, the funding model may need to change, but 
the excellent working relationship between private and public 
sector will continue. The success of our concept is proven. 
Other states, such as Washington, have studied the ATIA model, 
and are considering implementing changes to their destination 
marketing efforts.
    Addressing international travel, from the Alaska visitor 
industry perspective, almost 250,000, or 15 percent of Alaska's 
2006 summer visitors were international arrivals with the major 
countries of origin being Canada, the U.K., German-speaking 
Europe, Australia, Japan, and Korea. International visitors are 
an integral part of the traveler mix to Alaska. We as an 
industry, need to work diligently to make our great country as 
inviting and visitor-friendly as possible, yet we fully 
understand the importance of keeping our country, our borders, 
and our citizens, safe from terror and violence.
    Some specific suggestions for your consideration: continue 
working to simplify the visa application and approval process. 
From first-hand experience, I have been made aware of 
exhausting and exasperating steps that are involved in 
obtaining a visa. Expand the Visa Waiver Program, and consider 
including a larger number of countries, such as South Korea. 
Improve customs and border processes by hiring the additional 
200 officers in the recently passed legislation by the Senate.
    Thanks to Senator Stevens and Senator Inouye for their 
efforts in this regard. I believe that this specific action 
will help alleviate perceptions that we are not a welcome 
country--a welcoming country to our international guests. 
Establish and promote a public-private partnership that focuses 
on global promotion, tasked to market the U.S.A. as a great 
place to visit. We should also focus on communicating 
effectively, and to clearly explain what U.S. visitor policies 
are as well as marketing the U.S. as a destination. One 
specific usable communication-media that I believe should 
continue to be enhanced is the Internet. In four short years 
with refinement and improvement, our TravelAlaska.com site has 
more than doubled in number of unique visitors. It has 
definitely enhanced our ability to sell Alaska to our visitors. 
I believe that the web can do likewise internationally for 
future visitors.
    Similar to Alaska's model that blends the marketing 
promotion expertise and flexibility of the private sector, with 
oversight from the Government. Such an effort could change 
misconceptions of the U.S.A., and bring more international 
visitors to America.
    Thanks to this Committee for this opportunity to present 
some of Alaska's visitor efforts and experiences.
    [The prepared statement of Mr. Peck follows:]

          Prepared Statement of Ron Peck, President and COO, 
                   Alaska Travel Industry Association
    Chairman, Vice Chair and members of the Senate Commerce Committee, 
my name is Ron Peck, I am President and Chief Operating Officer of the 
Alaska Travel Industry Association. I have served in this capacity for 
4.5 years. I have been employed in the visitor industry for almost 30 
years. ATIA is a broad-based coalition of over 1,000 visitor-related 
businesses. We represent large and small companies including B&B's, 
fishing lodges, cruise companies, airlines, and day tour operators.
    We are a trade association acting as an advocate on land use, 
planning, and assessment issues. ATIA is not a government agency. We 
are a nonprofit service organization. Our other main mission is promote 
Alaska as a premier travel destination nationally and internationally. 
We do this on behalf of the State of Alaska through an annual contract.
    Prior to 2000, three distinct organizations did advocacy work, and 
the destination marketing for Alaska. Two of those agencies were 
government entities and one was a trade association. Overlap and 
inefficiencies existed. Funding for destination marketing fluctuated 
drastically, declining from a high of $15M in 1990 to $7M by 2000.
    A new, unique and creative plan that involved both private and 
public sector involvement was implemented. Essentially the three 
organizations were dissolved. The state reduced the Dept. of Tourism to 
an office and totally eliminated the second government agency. The 
former trade association also also dissolved.
    The idea was to consolidate, be more efficient increase 
effectiveness. We believe that ATIA has done just that with this unique 
private/public partnership. We are also pleased with the level of 
private sector involvement. Thirty-five marketing experts volunteer 
from the private sector to create and develop the annual marketing plan 
that is then approved by the SOA and implemented by ATIA staff. Again 
the unique part of this relationship is that we have actually reduced 
government staffing levels, and increased the private sector 
involvement at no cost to the SOA.
    Funding for the program is done on a 50/50 percent match basis, 
with the state contributing up to $5M, which allows for a core 
marketing program of $10M. Because of recent additional specific taxes 
on the visitor industry in Alaska, the funding model may need to change 
but the excellent working relationship between the public and private 
sector will continue.
    The success of our concept is proven and other states such as 
Washington have studied the ATIA model and they are considering 
implementing changes to their destination marketing efforts.
    Addressing International Travel--We as an industry fully understand 
the importance of keeping our country, our borders and our citizens 
safe from terror and violence. From the Alaska visitor industry 
perspective almost 250,000 (15 percent) of Alaska's 2006 summer 
visitors were international arrivals with the major countries of origin 
being Canada, U.K., German-speaking Europe, Australia, Japan and Korea. 
International visitors are an integral part of the traveler mix to 
Alaska. We as an industry need to work diligently to make our great 
country as inviting and visitor friendly as possible. Some specific 
suggestions for your consideration:

  <bullet> Continue to work toward simplifying the visa application and 
        approval process. From first hand experience I have been made 
        aware of the exhaustive and exasperating processes and steps 
        that are involved in obtaining a visa.

  <bullet> Expand the Visa Waiver Program--and consider including a 
        larger number of countries such as South Korea.

  <bullet> Improve Customs and Border processes by hiring the 
        additional 200 officers in the recently passed legislation by 
        the Senate. Thanks to Vice Chair Stevens and Senator Inouye for 
        their efforts in this regard. I believe that this specific 
        action will help alleviate perceptions that we are not a 
        welcoming country to our international guests.

  <bullet> Consider developing an International Registered Traveler 
        Program. Other countries have developed IRT programs that work 
        to ensure security by focusing attention on lesser known 
        travelers. A good example for Alaska is with Japan and the 
        business traveler volume for commercial fishing-related 
        business between Japan and Alaska.

  <bullet> Establish a public-private partnership focusing on global 
        promotion tasked to market the U.S.A. as an great place to 
        visit. We should also focus on communicating effectively to 
        clearly explain U.S. policies as well as marketing the U.S. as 
        a destination. One useful media-specific vehicle of 
        communicating that I believe should continue enhanced is the 
        Internet. In four short years with continued refinement and 
        improvement our TravelAlaska.com site has more than doubled in 
        the number of unique visitors. It has definitely enhanced our 
        ability to sell Alaska to our visitors. I believe that the web 
        can do likewise for our future international visitors.

    Similar to Alaska's model that blends the marketing promotion 
expertise and flexibility of the private sector with oversight from the 
government, such an effort could change misconceptions of the U.S.A., 
and bring more international visitors to America. Thanks to the Senate 
Commerce Committee for this opportunity to present some of Alaska's 
visitor experiences.

    Senator Dorgan. Mr. Peck, thank you very much.
    I will call on Senator Inouye first, for questions, 
followed by Senator DeMint and I will ask the final questions.
    Senator Inouye?
    The Chairman. Mr. Chairman, I'd like to submit my 
questions. I just have a few here.
    Senator Dorgan. Without objection.
    The Chairman. There are several matters that all of you 
agree upon. International traveling is very important, and 
second, there should be a working partnership between the U.S. 
Government and the states.
    Mr. Johnson, you spoke of a coordinated program. How do we 
coordinate this?
    Mr. Johnson. Chairman Inouye, I think that if we are able 
to have an office in Washington, D.C., and I suggest that it 
might be in the Department of Commerce, where the states could 
coordinate their efforts, as far as international marketing 
goes. Then all of us would be on an even--even footing and we 
would market the United States as a destination rather than our 
individual states.
    We would still, underneath marketing the United States as a 
destination, and a friendly place to be, each state would still 
compete with one another with the marketing dollars that they 
had available. So, I see it as an office here in Washington, 
D.C. that coordinates us.
    The Chairman. Chairman Dorgan will be submitting a draft of 
a bill for our consideration. And, I think he's going to do it 
within 10 days. I would like to receive from all of you, a list 
of three major obstacles that, by legislation, we could 
address. Obstacles that somehow we deliberately, or 
inadvertently, have laid down. That I would appreciate very 
much. Thank you.
    Senator Dorgan. Senator Inouye, thank you very much.
    Senator DeMint?
    Senator DeMint. Thank you all for being here. You've 
clearly brought out a very serious issue for our country. It 
not only affects tourism. The same issues are true in the 
business world, business travel. Trade shows are no longer held 
here because of the difficulty of getting visas and 
conventions. Companies are given many reasons to locate 
overseas, rather than try to sell their products here. So, it's 
a big issue.
    I think we really need to think about how we solve this 
problem, because if you like how the government runs our 
Customs agency now, you'll love how they promote and manage the 
advertising of tourism. We need to be careful. I spent most of 
my life in the advertising business, and I know the quickest 
way to ruin a bad product is to advertise it. And, we've got to 
start with our product problem, which you've brought up.
    We've got a problem with our visas and we need to expand 
the waivers. Clearly, our Customs agency needs to move people 
through, and welcome them in a way that we're not doing now. 
So, to rush to advertise or promote, would be a huge mistake. 
Clearly, we've got to fix how we get folks in this market.
    I do think some of you have mentioned ideas that might be 
helpful. Instead of looking at how we can spend millions and 
millions abroad on promotion--and I'm not even aware, Mr. 
Chairman, if we have a national website that has links to 50 
states to tourism. It would seem like we could set something 
like that up, and contract it out and have links to every 
state, ads by category that could help pay for it so that you 
wouldn't necessarily--I mean I know, when I tell people from 
overseas I'm from South Carolina, they're not necessarily aware 
where South Carolina is. But, if they could go to a United 
States website and find out about every state, look at 
categories that might tell them about the open range in North 
Dakota or the beautiful beaches in South Carolina--we may be 
trying to make this more complicated than it is.
    If we fix our visa system and our Customs processing, 
perhaps we do coordinated things at the Federal level that 
could allow people to access every state without looking at 
some huge new government-managed program that isn't going to 
work any better than our Customs agency does. But, I just, any 
quick comment.
    I know the Chair, we've got votes and the Chairman has the 
last word here, but, Chad, I'll start with you and then see 
if----
    Mr. Prosser. Well, Senator, I would agree that marketing 
begins with product, and certainly we need to address these 
facilitation issues before we begin aggressively advertising. I 
think we have a perception issue abroad that we do need to 
overcome, and as we fix these facilitation issues, we need to 
then get that message out that we do welcome international 
travelers. And for South Carolina, like North Dakota, we're a 
secondary, second-tier market. International travelers come to 
us after they've been to the Florida theme parks or visited New 
York City. Part of what needs to happen at the national level 
is to advertise that diversity of product that we have in the 
country.
    There is an effort, the Department of Commerce has issued a 
contract, to the Travel Industry Association to actually create 
such a website using a lot of the existing content. So, that is 
a positive development. But, I think any advertising that would 
eventually come about, needs to be highly influenced by the 
private sector in terms of its strategy and its content.
    Senator DeMint. Mr. Peck?
    Mr. Peck. Senator, I would agree with Mr. Prosser's 
comments about the private sector being involved. And, I also 
think that what we need to look at is a consistent message and 
that we're in the marketplace for the long term. You don't turn 
things around overnight, from a marketing perspective. And, you 
know, we may not see some realization of that in a 2-3 year 
time frame, but I absolutely believe that with a consistent 
marketing message in the marketplace, competing against 
countries that are spending a lot of money in a lot of 
different ways, we can regain some of that market share.
    Senator DeMint. Thank you, Mr. Chairman.
    Senator Dorgan. Senator DeMint, thank you very much.
    First of all, thanks to the four of you for giving us a 
different perspective. Let me read to you a quote that is in 
the front cover of the Discover America Partnership document. 
They testified at the last hearing we held. This is a quote 
that's, it's on the second page. It's from an Ian Jeffrey, a 
British visitor who has been coming to the United States with 
his wife for 15 years. Here's what he said last November, ``We 
are citizens of a country regarded as one of the closest allies 
the U.S. has, yet on arrival we are treated like suspects in a 
criminal investigation, and made to feel unwelcome.''
    Now, that's what I described about the tension here, the 
tension of trying to make certain that we keep terrorists out 
of our country, and at the same time wanting to welcome 
international visitors because we understand that that's a 
significant part of our economy, and to continue to keep, to 
acquire our share of international tourism. That tension exists 
and it's real and we have to deal with it.
    It's interesting, all of you come from, you come from four 
different states, all wanting to tell people about your States, 
to say, come to our state. We have unbelievably deep riches of 
interest for you, and yet, in most cases you have rather 
limited budgets--Hawaii, perhaps more, I don't know that--but, 
you know, North Dakota, South Carolina, rather limited budgets 
with which to internationally advertise. And I think, some of 
the suggestions you've made this morning make a lot of sense.
    It does make sense, it seems to me, for this to be, I think 
all of you have said, there needs to be a national effort. An 
effort by which our country reaches out to say to people around 
the world, ``You're welcome here, we want you to come here, to 
see our country is to believe and understand what a democracy 
can be and how wonderful our country is.''
    It's not just about visiting, it's about diplomacy in many 
ways. So, I think all of you have described the interest at 
some more national effort very well.
    Mr. Borlaug, you were describing--I was just thinking about 
this--in my state, if I might just for a moment brag about 
North Dakota. When you think of the characters in North 
Dakota's history, Lewis and Clark, Sacagawea, General Custer, 
Sitting Bull, Theodore Roosevelt, it's an unbelievable legend 
of characters, I should say legendary characters, instead of 
legend of characters. And, yet, a smaller state like North 
Dakota does not have much of a budget with which to promote 
that to international travelers.
    And that's the point, my guess is every state has the same, 
I don't know what your legendary attractions would be and 
people would be in South Carolina, but I bet you can, Mr. 
Prosser and Senator DeMint can carry on at great length about 
that. So, let me just ask one or two questions and say thank 
you for your contributions.
    One of the discussions here is a Federal policy issue 
that's going to be very controversial. I think Senator DeMint 
was kind of alluding to it with his first question today. Some 
are saying at Discover America Partnership that you have to 
find some mechanism, some fee to raise some funding to have a 
national effort. Some are talking about an exit fee, a kiosk at 
an airport, just as an example. So, that when you leave the 
country, you pay a $5 fee. Apparently, that happens in many 
countries. You leave the country, you pay an exit fee. Some are 
saying that would be an appropriate way to raise some money for 
a national effort here. Give me your reaction to that. It's a 
national policy issue, but what's your sense of it?
    Mr. Johnson?
    Mr. Johnson. Mr. Chairman, I'm totally for it. I mean, we 
need to put together a bundle of money, not a bundle being 
large, but we need to put together a hunk of money to----
    Senator Dorgan. Was it a hunk or a bundle?
    [Laughter.]
    Mr. Johnson. Some amount of money, Mr. Chair, excuse me, 
hunks and bundles. We need to put together some money to be 
able to pull this off. And until we can make America its own 
destination--which the remainder of the world seems to have 
already been able to do--we are not going to have this 
coordinated policy that we talked about today.
    Senator Dorgan. Anybody else?
    Mr. Prosser. Mr. Chairman, I think a dedicated source of 
funding is important, because generally when you need to be out 
in the market is when the economy has had a downturn and that's 
when you need to be spending more. And so, it's often 
difficult, we find at the state level. Even coordinating the 
resources that we're getting with what we need, to be actually 
spending those resources. So having a constant dedicated 
source, I think, is beneficial when you're talking about this 
type of activity.
    Mr. Peck. Senator, I alluded earlier that our program is 
based on matched private sector funding. When you institute new 
taxes, those voluntary contributions have a tendency to go 
away, so I would agree with Mr. Prosser. I'm not going to 
comment which is the best, but I do believe that there needs to 
be some sort of structured assessment in order to make it work 
and make it fair for everyone. Because in some cases, you'll 
have some that will participate if you do it on a voluntary 
basis, and some will not. So, I would agree with Mr. Prosser, 
it needs to be fair and equitable.
    Mr. Borlaug. I really think a $5 exit fee is entirely 
prudent. I checked out of my hotel yesterday in Washington, 
D.C. and I believe I paid about an $80 exit fee----
    [Laughter.]
    Mr. Borlaug.--with lodging taxes. And we all know that 
lodging taxes are utilized all across the country to fund 
convention and visitors bureaus and other forms of promotion. 
It's really an extension of the same thing.
    Senator Dorgan. Were any of you involved in tourism in the 
mid-1990's when there was an agency inside of the U.S. Commerce 
Department, whose explicit purpose was for promotion and that 
sort of thing? Were any of you working in tourism at that 
point? I'm curious to get the reflection of whether that was 
helpful, beneficial, or did that program provide something we 
should learn from, and take from, as we try to develop some new 
program?
    Mr. Borlaug. I think, Senator, the one thing to learn from 
that is, I like the approach of a nonprofit corporation 
chartered by the Federal Government, but independent of the 
Federal Government with employees then who are unencumbered by 
the restraints that Federal status then conveys to individuals 
like that. And, there are many models for this in the Federal 
Government, there are certainly models for it in state 
governments all across the country and I really, really like 
that approach.
    Mr. Peck. I would totally agree with Mr. Borlaug. I think 
that even though we may have some funding problems, we're very 
proud of what we do with the fact that we have 35 stakeholders 
in our industry--large businesses and small--who are very 
involved in bringing more visitors to Alaska. And, I think you 
can do the same thing on a national basis, when you get the 
private sector involved to that level.
    Mr. Prosser. I would agree. I think that organization could 
be very small, administratively, so that the maximum amount of 
the resources are spent on the marketing campaign itself.
    Senator Dorgan. Senator Inouye's request of you is a good 
request. I think as we try to put together a piece of 
legislation, I mentioned Senator Inouye, Senator Stevens, we 
will certainly work with Senator DeMint as a Ranking Member. As 
we try to put together some legislation here, it's very 
important for us to try to understand what are the dos and 
dont's? In other words, what are the most effective approaches 
for people like you, and organizations like yours, that are out 
there working in the states? So, I'll be very interested in 
receiving the information that Senator Inouye has requested as 
we begin to try to put this together.
    Senator Inouye, do you have anything further?
    The Chairman. I'd like to congratulate you for convening 
these hearings because I remember--I've been here long enough 
to know that, at one time, tourism was handled by, not an 
Assistant Secretary, but just someone who was protocol-wise 
below our administrative assistant.
    In most countries, major countries, there is a cabinet 
member, a ministerial position on tourism. The United States is 
the exception and I think these discussions will raise the 
importance of such a position. And, I hope that the Government 
of the United States takes note of that.
    Senator Dorgan. Senator DeMint, do you have anything 
further?
    Senator DeMint. No, this is very good input and I look 
forward to working with both Chairmen and coming up with some 
ideas. I like the commitment toward an independent group. We 
don't need to think Federal Government, we do need to think 
national. And, I can just assure you that anything we develop 
that's managed by the Federal Government will not work. And so, 
I hope we, I can get that out of your mind----
    [Laughter.]
    Senator DeMint.--but the idea of a national coordinating 
agency; I happen to believe, if we did a national website, used 
an independent group, sold advertising, not only to states, but 
to major tourist sites, we could create a fair amount of 
revenue and we need to look at the money that we need.
    But, the first thing, if we can't fix our visa and our 
Customs systems, there's no need to spend millions and millions 
promoting our country, because all we're going to do is turn 
people away faster. But, thank you very much.
    Senator Dorgan. Now, Senator DeMint, neither of us aspire 
to work in a Federal Government that doesn't work. We aspire to 
work in a Federal Government that can work and that we're proud 
of, I know. This issue of a government agency in the Commerce 
Department, some sort of quasi private-public, I mean all those 
things, I think, are things that we will be discussing. And I 
appreciate very much the input.
    The four of you have traveled some distance to be with us 
today and I think this is a logical conclusion of the two 
hearings, to hear from people in the various states who are 
actually out there trying to figure out how we can attract 
people to our region, to our state. And, your testimony is very 
helpful.
    This hearing is adjourned.
    [Whereupon, at 11:31 a.m., the hearing was adjourned.]
                            A P P E N D I X

  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Jamie P. Estrada
    Question 1. At the hearing, you agreed to provide a report to the 
Committee regarding the Secretary's response to the recommendations 
made by the U.S. Travel and Tourism Advisory Board (USTTAB) to the 
Secretary last September. As part of that report, please detail what 
steps Secretary Gutierrez has taken and plans to take to implement the 
recommendations. Please provide this report along with answers to the 
questions below.
    Answer. The Secretary of Commerce asked for and received 
recommendations from the Travel and Tourism Advisory Board (TTAB) on 
how the government can assist industry in increasing their numbers of 
international customers. These recommendations addressed government 
policies under the purview of the Department of Homeland Security (DHS) 
and the Department of State (DOS), as well as the Department of 
Commerce. The Secretary asked that DHS and DOS become ex-officio 
members of the TTAB in order to ensure effective communication at the 
highest levels. The Secretary leads the interagency Tourism Policy 
Council (comprised of over 18 agencies and offices in the USG involved 
in travel and tourism activities) which is dedicated to coordinating 
tourism policy considerations. Following receipt of their 
recommendations, the Secretary invited the TTAB to present its 
recommendations directly to the Tourism Policy Council (TPC). He then 
requested a policy assessment from the TPC to ensure that the concerns 
of the industry were being addressed appropriately. A copy of this 
assessment in tabular form is attached (see page 56). The 
implementation of many of the recommendations is an ongoing process; 
therefore, this assessment represents progress to this point in time.

    Question 2. The USTTAB was created after 9/11 to advise the 
Secretary of Commerce on travel promotion issues. How well has the 
USTTAB worked to date?
    Answer. The TTAB is an effective mechanism to communicate concerns 
of the industry to the Federal Government. The Secretary of Commerce 
and Under Secretary of the International Trade Administration have been 
actively engaged in TTAB meetings. The TTAB has been responsive to the 
Secretary's requests for advice on Gulf Coast recovery issues and in 
providing recommendations on ways to increase international travel to 
the U.S.

    Question 3. The USTTAB report advocates for a nationally-
coordinated marketing strategy to enhance our international 
competitiveness for tourism dollars. How successful have the Commerce 
Department's efforts been in promoting travel to the United States to 
date? Does the USTTAB's recommendation make sense?
    Answer. As was reported to the Committee, the international tourism 
promotion programs implemented by the Department of Commerce to date 
have been successful. In 2004, the $6.1 million International Tourism 
Promotion Program was launched in the United Kingdom. A travel market 
research and marketing company estimated a return on investment of $117 
to $1 for the Department's tourism promotion media campaign that year, 
which suggests that privately funded promotional campaigns would be 
cost-effective.
    The Administration continues to believe that it is more appropriate 
and effective to entrust the tourism marketing function to states, 
travel destinations and the private sector. It is our view that the 
resources of the Federal Government are best used in addressing other 
issues critical to the U.S. travel and tourism industry such as but not 
exclusive to liberalization of air services, visa issuance and 
passenger entry facilitation.
    At the Department of Commerce, we are focused on the export 
promotion of tourism. Staff in the Department's Commercial Service, who 
work in more than 100 offices in the United States and in more than 80 
countries worldwide, help to increase U.S. travel exports. This effort 
is effectively delivered through the Commercial Service's Travel and 
Tourism Team, which has a total of 125 (74 international and 51 
domestic) travel and tourism industry sector specialists. In 2006, the 
Team participated in 79 travel and tourism events. Since 2005, the 
Commercial Service has posted over 735 export successes, accounting for 
over $61 million in the travel and tourism sector.

    Question 4. If additional funding were available for a promotions 
program, would the Department of Commerce be able to make the travel 
promotions campaign more effective?
    Answer. The Administration believes that promoting travel and 
tourism is most effective if carried out by the private sector and 
destinations with funding from the private sector. It is our belief 
that the resources of the Federal Government are best used in 
addressing other issues critical to the U.S. travel and tourism 
industry such as but not exclusive to liberalization of air services, 
visa issuance and passenger entry facilitation.

 Summary of The Tourism Policy Council Review of the Travel and Tourism
                             Advisory Board
    [Recommendations to the U.S. Secretary of Commerce--``A National
  Strategy to Compete for International Visitors:  The U.S. Government
                               Response'']
------------------------------------------------------------------------
  TTAB Recommendation
 Category 1: Make It
 Easier for People to           Specific               Actions taken
        Visit               recommendations------------------------------------------------------------------------
Remove Unnecessary     Reduce disruption         <bullet> Implementation
Barriers to Travel      threatened by             requirements were
                        implementation of WHTI    divided into two
                                                  phases: requirements
                                                  for travel by air
                                                  (January 2007), and
                                                  requirements for land
                                                  and sea (2008).
                       ........................  <bullet> DHS and State
                                                  worked with travel and
                                                  tourism stakeholders
                                                  and the Canadian
                                                  Government to ensure
                                                  that travelers were
                                                  aware of the new
                                                  passport requirement.
                       ........................  <bullet> Ninety-four
                                                  percent of Americans
                                                  crossing our borders
                                                  had passports the week
                                                  before implementation
                                                  and 99 percent of
                                                  travelers had
                                                  passports at the
                                                  border by the second
                                                  day after
                                                  implementation of the
                                                  air rule.
                       ........................  <bullet> In the
                                                  forthcoming Notice of
                                                  Proposed Rulemaking
                                                  (NPRM) on WHTI, DHS
                                                  intends to propose
                                                  allowing U.S. and
                                                  Canadian children
                                                  under the age of 18 to
                                                  travel with a
                                                  certified birth
                                                  certificate rather
                                                  than a passport or
                                                  WHTI-compliant
                                                  identity card under
                                                  certain circumstances.
                       ........................  <bullet> State hired
                                                  more than 250
                                                  additional passport
                                                  adjudicators in the
                                                  past year, and will
                                                  hire 86 additional
                                                  this year to keep up
                                                  with increased demand
                                                  for passports as a
                                                  result of WHTI.
                       ........................  <bullet> State is
                                                  working to introduce
                                                  the Passport Card as a
                                                  more convenient and
                                                  cost-effective travel
                                                  document for U.S.
                                                  citizens who regularly
                                                  cross the border.
                       ........................  <bullet> DHS is working
                                                  with Canada to expand
                                                  the NEXUS program for
                                                  low-risk, pre-vetted
                                                  travelers, and intends
                                                  to propose acceptance
                                                  of the NEXUS, SENTRI,
                                                  and FAST enrollment
                                                  documents under WHTI.
                       ........................  <bullet> DHS has signed
                                                  a memorandum with the
                                                  State of Washington to
                                                  develop an enhanced
                                                  driver's license that
                                                  could be used for
                                                  cross-border travel
                                                  under WHTI.
Remove Unnecessary     Facilitate issuance of    <bullet> State
Barriers to Travel      non-immigrant visas to    introduced an
                        legitimate travelers;     electronic visa
                        address visa staffing     application form
                        and visa waits; improve   (EVAF) and an Internet-
                        overseas visa             based visa appointment
                        facilities                system, and all
                                                  consular posts have
                                                  placed appointment
                                                  wait times online
                                                  (travel.state.gov).
                       ........................  <bullet> Since 2001
                                                  State has created 570
                                                  new consular positions
                                                  worldwide to handle
                                                  visa demand. Visa
                                                  processing delays have
                                                  been cut dramatically.
                                                  The amount of time it
                                                  takes to process visas
                                                  has been reduced to 2
                                                  weeks in most cases.
                                                  Fewer than 3 percent
                                                  of travelers are
                                                  subject to additional
                                                  security reviews in
                                                  Washington.
                       ........................  <bullet> All State
                                                  posts have established
                                                  mechanisms to expedite
                                                  visa appointments for
                                                  legitimate business
                                                  travelers, students,
                                                  and international
                                                  exchange visitors.
                       ........................  <bullet> State
                                                  established a Business
                                                  Visa Center (BVC) to
                                                  explain the visa
                                                  process to U.S.
                                                  companies, convention
                                                  organizers, and
                                                  others.
                       ........................  <bullet> Nonimmigrant
                                                  visa issuance in FY
                                                  2006 rose 8 percent
                                                  over the previous
                                                  year, with business/
                                                  tourist visa issuances
                                                  increasing 12 percent.
Remove Unnecessary     Maintain and expand the   <bullet> In November
Barriers to Travel      Visa Waiver Program       2006, President Bush
                                                  announced his
                                                  intention to work with
                                                  Congress to reform the
                                                  Visa Waiver Program.
                                                  The Administration has
                                                  determined that
                                                  reforming the Visa
                                                  Waiver Program so as
                                                  to extend
                                                  participation to
                                                  countries that
                                                  demonstrate a
                                                  commitment to security
                                                  and meet other
                                                  criteria that are more
                                                  flexible than the
                                                  current standards;
                                                  thereby facilitating
                                                  travel to the United
                                                  States while
                                                  maintaining security.
Remove Unnecessary     Build on the success of   <bullet> The US-VISIT
Barriers to Travel      US-VISIT to address       Program has been
                        barriers to air travel.   successful in enabling
                                                  DHS officers to screen
                                                  foreign passengers
                                                  entering the United
                                                  States against
                                                  integrated databases
                                                  that contain
                                                  information on
                                                  individuals with
                                                  criminal, immigration
                                                  violation, or
                                                  terrorism-related
                                                  histories. Between
                                                  January 2004 and March
                                                  31, 2007, DHS
                                                  processed more than 80
                                                  million international
                                                  travelers through US-
                                                  VISIT without
                                                  negatively impacting
                                                  wait times.
                       ........................  <bullet> DHS is working
                                                  to expand biometrics-
                                                  based exit capability
                                                  to airports in the
                                                  United States. This
                                                  will identify
                                                  overstays and promote
                                                  the integrity of the
                                                  immigration system.
                       ........................  <bullet> DHS is
                                                  transitioning from the
                                                  collection of two
                                                  fingerprints to a 10-
                                                  fingerprint collection
                                                  system, which is a
                                                  crucial component of
                                                  the U.S. Government's
                                                  ability to screen
                                                  travelers entering or
                                                  re-entering the United
                                                  States.
Create a Welcoming     Staff inspection          <bullet> DHS and State,
 First Impression       services; incorporate     in partnership with
                        hospitality in DHS        the private sector and
                        reviews; better           State and local
                        coordination with other   governments, have
                        governments, welcome      introduced a pilot
                        visitors, and issue       ``Model Airport''
                        accurate and timely       program to ensure a
                        communications on         more welcoming
                        requirements              environment for
                                                  foreign visitors.
                       ........................  <bullet> Pilot projects
                                                  at Houston
                                                  Intercontinental and
                                                  Washington Dulles
                                                  International Airports
                                                  feature customized
                                                  video messages for the
                                                  public with practical
                                                  information about the
                                                  entry process,
                                                  improved screening and
                                                  efficient movement of
                                                  people through the
                                                  border entry process,
                                                  and assistance for
                                                  foreign travelers once
                                                  they have been
                                                  admitted to the United
                                                  States.
                       ........................  <bullet> DHS and State
                                                  worked with travel and
                                                  tourism stakeholders
                                                  and the Canadian
                                                  Government to ensure
                                                  that travelers were
                                                  aware of the new
                                                  passport requirement
                                                  under WHTI.
                       ........................  <bullet> DHS has
                                                  created a one-stop
                                                  redress program known
                                                  as the Traveler
                                                  Redress Inquiry
                                                  Program (TRIP) for
                                                  travelers who have
                                                  been unduly detained
                                                  or delayed in the U.S.
                                                  arrival screening
                                                  process. As of March
                                                  29, 2007, over 3,700
                                                  inquiries have been
                                                  received through the
                                                  TRIP program.
                       ........................  <bullet> CBP has met
                                                  with executives of an
                                                  Orlando destination
                                                  attraction to discuss
                                                  CBP's current
                                                  professionalism
                                                  initiative process and
                                                  conducted walk-
                                                  throughs of the
                                                  Federal Inspection
                                                  Stations at Orlando,
                                                  Houston, and Dulles
                                                  International
                                                  Airports.
Provide a Stronger     Create an elevated voice  <bullet> The Secretary
 Voice for Travel and   for travel and tourism    of Commerce meets
 Tourism in             within government and     regularly with the
 Government             reinvigorate the          private sector Travel
                        Tourism Policy Council    and Tourism Advisory
                        (TPC)                     Board (TTAB) to
                                                  discuss travel and
                                                  tourism industry
                                                  concerns.
                       ........................  <bullet> The TTAB's
                                                  recommendations are
                                                  taken to the Tourism
                                                  Policy Council (TPC)
                                                  for policy review and
                                                  discussion. The TPC is
                                                  comprised of 17
                                                  Federal agencies and
                                                  is chaired by the
                                                  Secretary of Commerce.
                       ........................  <bullet> DHS and State
                                                  have created the
                                                  Secure Borders Open
                                                  Doors Advisory
                                                  Committee (SBODAC) to
                                                  represent a broad
                                                  spectrum of private
                                                  sector partners from
                                                  academia, businesses
                                                  (including travel and
                                                  tourism-specific
                                                  businesses), and
                                                  hospitals impacted by
                                                  the Rice-Chertoff
                                                  Initiative (RCI) and
                                                  its programs.
Discourage             Discourage inappropriate  <bullet> The policy
 Inappropriate Taxes,   taxes and fees            review of this
 Fees, and                                       recommendation is
 Regulations                                      underway.
Discourage             Review CBP rates          <bullet> The policy
 Inappropriate Taxes,                             review of this
 Fees, and                                       recommendation is
 Regulations                                      underway.
------------------------------------------------------------------------


 Summary of The Tourism Policy Council Review of the Travel and Tourism
                             Advisory Board
    [Recommendations to the U.S. Secretary of Commerce--``A National
  Strategy to Compete for International Visitors:  The U.S. Government
                               Response'']
------------------------------------------------------------------------
  TTAB Recommendation
Category 2: Ask People          Specific              Actions taken
      to Visit Us           recommendations
------------------------------------------------------------------------
Ask People to Visit Us  Promote a coordinated    <bullet> Staff in the
                         message that             Department of
                         communicates American    Commerce's (DOC)
                         experience; benefit      Commercial Service,
                         all regions equally;     working in 108 offices
                         ensure U.S. is top of    in the United States
                         mind with travelers      and in over 80
                                                  countries worldwide,
                                                  serves as the national
                                                  sales force to
                                                  increase U.S. travel
                                                  exports. The
                                                  Commercial Service has
                                                  established a Travel
                                                  and Tourism Team,
                                                  which has a total of
                                                  125 travel and tourism
                                                  industry sector
                                                  specialists.
                        .......................  <bullet> The
                                                  Administration
                                                  believes that
                                                  advertising and
                                                  promotion should be
                                                  funded by states,
                                                  destinations and the
                                                  private sector.
Ask People to Visit Us  Enhance our national     <bullet> Assistant
                         image                    Secretary of State for
                                                  Consular Affairs Maura
                                                  Harty has spoken to
                                                  business audiences
                                                  over the past 2 years
                                                  and reaches out to
                                                  international
                                                  audiences during her
                                                  official travel
                                                  overseas.
                        .......................  <bullet> Ambassadors
                                                  and State officials
                                                  have been instructed
                                                  to lead outreach
                                                  efforts overseas,
                                                  speaking to business
                                                  and student groups and
                                                  placing op-ed pieces
                                                  in local newspapers to
                                                  encourage travelers to
                                                  consider travel and
                                                  study in the United
                                                  States.
------------------------------------------------------------------------


 Summary of The Tourism Policy Council Review of the Travel and Tourism
                             Advisory Board
    [Recommendations to the U.S. Secretary of Commerce--``A National
  Strategy to Compete for International Visitors:  The U.S. Government
                               Response'']
------------------------------------------------------------------------
  TTAB Recommendation
      Category 3:               Specific
 Demonstrate the Value      recommendations           Actions taken
 of Travel and Tourism
------------------------------------------------------------------------
Demonstrate the Value   Assess methodologies     <bullet> The
 of Travel and Tourism   for return on            Administration's
                         investment measures      position is that it is
                         for marketing            the role of the
                         campaigns                private sector to
                                                  assess methodologies
                                                  for return on
                                                  investment measures
                                                  for marketing
                                                  campaigns.
Demonstrate the Value   Enhance the travel and   <bullet> DOC is working
 of Travel and Tourism   tourism industry's       to open new markets
                         contributions to the     and improve market
                         economy and job          access in countries
                         creation                 like China and Brazil
                                                  that have great
                                                  tourism growth
                                                  potential.
                        .......................  <bullet> DOC is
                                                  reviewing additional
                                                  international growth
                                                  markets to identify
                                                  and remove barriers to
                                                  entry to create the
                                                  most competitive
                                                  business climate for
                                                  the private sector to
                                                  continue to reach
                                                  record highs in travel
                                                  and tourism.
Demonstrate the Value   Measure perceptions of   <bullet> The private
 of Travel and Tourism   U.S. among               sector has conducted
                         international            such studies.
                         travelers
Demonstrate the Value   Support for permanent    <bullet> The DOC is the
 of Travel and Tourism   funding of statistical   only source of
                         programs to track ROI    statistical data on
                                                  travel and tourism and
                                                  measures the
                                                  contribution of travel
                                                  and tourism to the
                                                  national economy.
                        .......................  <bullet> DOC maintains
                                                  an integrated
                                                  statistical system
                                                  that reports
                                                  international arrivals
                                                  and expenditures,
                                                  projects growth in
                                                  international travel,
                                                  and through the Travel
                                                  and Tourism Satellite
                                                  Accounts, measures the
                                                  total economic impact
                                                  of travel and tourism
                                                  on the economy.
                                                  Business and
                                                  government use this
                                                  information for policy
                                                  and planning purposes.
                        .......................  <bullet> The
                                                  Administration's
                                                  position is that
                                                  private sector funding
                                                  for statistical
                                                  programs on travel and
                                                  tourism should be
                                                  solicited.
                        .......................  <bullet> A plan for
                                                  private sector funding
                                                  has been developed and
                                                  submitted to industry
                                                  groups for comments
                                                  and will be modified
                                                  and implemented based
                                                  upon the comments
                                                  obtained.
------------------------------------------------------------------------

                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
           Alfonso Martinez-Fonts, Jr. and Robert M. Jacksta
    Question 1. Can you explain what steps the Department of Homeland 
Security (DHS) is taking to ensure that international travelers know 
what to expect during the entry process?
    According to the Discover America Partnership, surveys indicate 
that our inspection process is both confusing and unfriendly. Given the 
USTTAB report and data from groups like the Discover America 
Partnership, what steps has the DHS taken to make the entry process 
welcoming to international travelers?
    Answer. DHS/CBP is addressing the issues that were raised by the 
Discover America Partnership by implementing its Model Ports 
Initiative, which came about as a result of the Rice-Chertoff Joint 
Vision Initiative. This initiative envisions the use of the best new 
technologies and most efficient processes to improve border security, 
while facilitating travel and welcoming visitors to the United States. 
Implementation of the Model Ports Initiative is moving forward at 
Dulles International and Houston Intercontinental Airports. To date:

  <bullet> Video monitors have been installed in both Federal 
        Inspection Services (FIS) areas at the Dulles International and 
        Houston Intercontinental Airports to better communicate with 
        the public;

  <bullet> The CBP Welcome to America video is now operational in the 
        Houston FIS and will be operational in Dulles with a projected 
        date of May 2007. This video explains the entry process;

  <bullet> The directional signage and banners to guide travelers 
        through the entry process have been installed in both FIS 
        areas; and

  <bullet> In addition, the Office of Public Affairs has arranged for 
        brochures to be developed and distributed to Houston 
        Intercontinental and Dulles International Airports. These 
        brochures ``Welcome to the United States: A Guide for 
        International Visitors'' and ``CBP Traveler Entry Forms'' 
        explain the entry process and provide information to facilitate 
        international travelers through that process. The brochures 
        have been developed and are now being translated into multiple 
        languages. Eventually, these brochures will be distributed to 
        all ports of entry.

    Question 2. Would an increase of 200 Customs officers in the 20 
international airports with the highest average number of foreign 
visitors allow the DHS to process travelers more efficiently?
    Answer. U.S. Customs and Border Protection (CBP) monitors and 
tracks the ever-evolving staffing needs at our ports of entry and 
facilities to ensure there are sufficient resources to accomplish its 
missions. CBP uses advanced technology, risk management principles and 
prioritizes its workload to meet staffing requirements.
    CBP currently determines the optimal level of staff at ports of 
entry (POE) by analyzing criteria such as volume, processing times, 
facility constraints and expansions, number of terminals/lanes, threat 
and risk factors, and overtime usage. Each Field Office submits 
quarterly resource submissions to ensure that the proper number of 
positions is allocated to appropriate areas. These submissions, 
combined with national and local initiatives and the current financial 
plan, are the driving factors in allocating personnel.
    CBP's Office of Field Operations (OFO) has developed a staffing 
allocation model for CBP Officers and Agriculture Specialists at POEs. 
The first phase of the model, focusing on CBP Officer--Air Passenger 
Processing has been completed and approved by CBP. The second phase, to 
include the remaining components in air, land, and sea, is under 
development.
    This model will be used as a decision-support tool and national 
guide for future allocations of resources. The model addresses staffing 
needs and has the capability of adjusting to changes in workload, 
processing time, complexity, and threat levels. The primary data 
driving the model is the recent volume statistics for key Officer and 
Agriculture Specialist activities.

    Question 3. What are your plans for implementing the US-VISIT exit 
program for air passengers? How will you work collaboratively with the 
airlines? Do you anticipate that the program will be burdensome on the 
airlines? If so, how do you propose to alleviate these burdens?
    Answer. During FY 2007 DHS will work with Federal partners and 
stakeholders to refine the operational, policy and technology decisions 
to complete exit requirements at air ports of entry. It also includes 
plans to ensure the US-VISIT exit solution is in technical alignment 
with the CBP and TSA programs. While the initial focus will be on 
commercial air environments, DHS will also begin work on a sea 
environment solution that will emulate the technology and operational 
plans for the commercial air environment.
    DHS has begun outreach with the airline industry. The Department is 
communicating the benefits of this new initiative and efforts to 
minimize the impact passenger data requirements may have on carriers. 
DHS is also considering several acquisition strategies.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                            Stephen A. Edson
    Question 1. The State Department has made progress in reducing the 
visa interview wait times in a number of countries. What specific steps 
did the State Department initiate to reduce those wait times?
    Answer. Nonimmigrant visa wait times are affected by numerous 
factors, including staffing, physical space limitations, changes in 
demand, and appointment scheduling procedures. As a result, the steps 
we take to reduce wait times are contingent upon the conditions at each 
post.
    In India, for instance, wait times increased due to high demand 
this year (India's workload has increased 55 percent compared with the 
same period last year). U.S. Ambassador David Mulford identified the 
issue as a main priority and, in coordination with the Department, 
committed all available Embassy resources to processing applications 
for nonimmigrant visas. Embassy staff from other departments assisted 
in visa interviews.
    The Department assigned temporary duty officers to India from other 
parts of the world. These efforts initially resulted in a 52 percent 
increase in visa processing. While demand will continue to increase, 
the appointment system now more accurately reflects the workload after 
this short-term surge of accelerated processing.
    Our posts in Brazil also have historically long appointment wait 
times due to increased demand and limited visa validity. The number of 
applications has increased dramatically from FY 2004--FY 2006 (more 
than 100 percent in Brasilia and Recife, over 25 percent in Rio, and 
almost 100 percent in Sao Paolo) due to an improved Brazilian economy 
and a favorable exchange rate. Visa validity continues to contribute to 
increased wait times because the length of validity of visas we issue 
to Brazilians is limited by the length of validity of visas issued by 
the Brazilians to Americans traveling to Brazil, thus requiring 
frequent travelers to reapply at relatively short intervals. Although 
the topic of expanded visa reciprocity has been raised on several 
occasions, the Government of Brazil has not yet agreed to lengthen 
their visa validity. Since April 2007, visa applicants can schedule 
their interview at any of the consular sections in Brazil according to 
individual preference, instead of the past system of requiring 
applicants to be interviewed at the post within their consular 
district. This system allows applicants to apply where wait times are 
shorter, thus more effectively balancing the workload between posts.
    Wait times in Mexico for H-2 (temporary worker) visas were on the 
rise, due to increased demand, staffing gaps, and the requirement that 
all applicants for H-2 visas apply in Nuevo Laredo. Beginning in 
January of 2007 the Department allowed H-2 applicants to apply at most 
other Mexican posts, which has decreased wait times countrywide to less 
than 2 weeks. The Department also sent additional temporary staff to 
Nuevo Laredo.
    Our posts in China also face the same type of increased demand 
(between 40 and 60 percent compared to the same period last year). In 
the summer months, as demand increases, posts add additional 
appointments to decrease wait times: for example, Beijing is currently 
in the process of adding between 700 and 1,000 additional appointments 
for July and will add a similar number in August, if necessary. Like 
many other posts, our China posts manage workload by providing 
expedited processing for students, exchange visitors, members of the 
American Chamber of Commerce, and group tourist travel, allowing them 
to process high-priority cases in a timely manner.

    Question 2. What is the goal of the State Department with respect 
to the maximum time a visa applicant should have to wait for an 
interview, and what is being done worldwide to achieve this goal?
    Answer. In February 2007, the State Department set a global 
performance indicator that all applicants should receive an appointment 
for an interview within 30 days, if they so desire. The global 
performance indicator for student visas and U.S.-interest business 
visas will be 15 days or less with each post using an expedite channel 
for appropriate student, international visitor, business, and other 
cases. Those found eligible for a visa and not requiring additional 
processing, such as Security Advisory Opinions (SAOs) or fraud 
investigations, should expect their visa to be issued within two to 3 
days after their interview.
    Seasonal shifts and variations in conditions at posts, such as 
unexpected staffing vacancies, security problems, or natural disasters, 
will affect posts' ability to maintain these standards year-round, but 
we are committed to making this an achievable mark in most posts. Force 
majeure situations will sometimes leave some posts unable to meet this 
goal until a new building is in place, or civil unrest abates, or a 
host government loosens up on staffing restrictions.
    In order to meet these standards, the State Department has:

  <bullet> Committed to opening new consulates in key countries (like 
        Hyderabad, India) while transferring consular positions to 
        high-demand countries like India and China.

  <bullet> Created 570 new consular positions since September 2001 to 
        meet growing global demand.

  <bullet> Supported increased visa validity on a reciprocal basis with 
        other countries.

  <bullet> Mandated an electronic visa application form to promote 
        efficient data entry, and increase the number of applicants 
        each office can interview daily.

  <bullet> Posted all posts' visa appointment wait times on-line.

  <bullet> Directed all posts to give students and urgent business 
        travelers priority appointments.

  <bullet> Opened the Business Visa Center (BVC) to explain the visa 
        process to U.S.-based businesses and to foreign employees, 
        clients and partners who want to travel to the United States. 
        The BVC fielded 3,003 inquiries and assisted 132,618 travelers 
        from January 1 through July 11, 2007.

  <bullet> Invested in technology to improve data-sharing and speed 
        interagency clearance processing.

  <bullet> Piloted a web-based appointment system in a number of posts. 
        The ultimate goal is to have one uniform appointment system for 
        all posts, coupled with a fully electronic visa application.

  <bullet> Planned to implement ten-print fingerscan collection at all 
        posts by the end of calendar year 2007.

  <bullet> Committed to making the visa process as uniform, efficient, 
        and transparent as possible, while maintaining our borders safe 
        for visitors and citizens.

    Question 3. Of the thousands of visas that you have issued, what 
percentage has been issued to men and women who later turned out to be 
questionable from a national security standpoint?
    Answer. In FY 2006, the State Department issued 6,285,783 visas. Of 
that number, the Department prudentially revoked 368 visas for reasons 
relating to national security. In FY 2007 to date, the Department has 
revoked 294 visas for reasons related to national security. A 
prudential revocation is not a determination that a foreign national 
posed a national security risk, but rather a determination that after 
the visa was issued information came to light indicating that the 
foreign national needed to apply for a new visa in order to reestablish 
his or her eligibility.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             Rex D. Johnson
    Question. From your perspective, what are the three major obstacles 
to international visitors coming to the U.S. that we could address in 
legislation?
    Answer.

        (1) Lack of a nationally-coordinated marketing campaign to 
        increase the U.S. market share of the global tourism market. 
        While this would probably take at least a couple of years to 
        show any results once the program would be launched, it is the 
        most glaring disadvantage faced by the U.S. in international 
        markets.

        (2) Streamlined U.S. immigration and customs inspection 
        procedures with a much more ``visitor friendly'' philosophy and 
        approach.

        (3) Expansion of the Visa Waiver Program to include prime 
        markets such as Korea and Brazil, and more attention to the 
        surging Chinese and Indian markets.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                                Ron Peck
    Question. From your perspective, what are the three major obstacles 
to international visitors coming to the U.S. that we could address in 
legislation?
    Answer. Obstacle #1--Intense competition exists for international 
visitors.
    The United States is sorely lacking when it comes to competing 
against other countries for the international visitor. Other countries 
are expending substantial capital to lure potential visitors to their 
destination. Ireland, Norway, Australia, New Zealand and Japan to (name 
a few) have deliberate, consistent and strong marketing efforts that 
include extensive media advertising (television, newsprint, magazine), 
strong international sales representation, Internet marketing, and 
international trade show representation. Certain countries even elevate 
the importance of tourism by establishing a ministry of tourism and 
establishing it as part of the government's cabinet.
    Suggested Solution--Establish a public/private partnership focusing 
on global marketing promotion efforts. The public/private partnership 
should not be part of the U.S. Government but a nonprofit entity tasked 
specifically to market the U.S.A as a great place to visit. Consider a 
model similar to Alaska's that blends the marketing and promotion 
expertise and flexibility of the private sector with input and 
financial support from the government. Marketing experts could be 
selected by a nonpartisan panel of government and private sector 
representatives. These marketing experts would be tasked with specific 
oversight and development of the marketing effort. Such a system would 
ensure that the private sector's knowledge of the marketplace, 
expertise and interests are taken into consideration and acted upon by 
the nonprofit marketing entity. Additionally, such a system ensures 
that the implementation and execution of the marketing plan is 
accomplished efficiently and effectively.
    Obstacle #2--Funding an international marketing effort.
    Obviously it takes resources--money to operate and carry out this 
important task. A permanent funding source is imperative.
    Suggested Solution--Similar to other locations such as New Zealand, 
Japan, Mexico, and Canada establish a departure fee. Prior to boarding 
international flights when leaving the U.S.A., a simple departure tax 
or assessment of $5 to $10 would be appropriate and could readily fund 
an international marketing effort. The funds should be dedicated 
specifically for U.S. international tourism marketing efforts. In the 
interest of maintaining good relations and commerce with our neighbors, 
consider waiving the fees for departures to Canada, Mexico and the 
Caribbean.
    Obstacle #3--Challenges with the visa approval process.
    Inherent challenges exist with respect to the visa procurement 
process including:

  <bullet> Lengthy delays.

  <bullet> Multiple visits requiring extensive travel and associated 
        travel costs.

  <bullet> Perception that the U.S.A. is a difficult country to visit 
        and not welcoming.
Suggested Solutions
  <bullet> Develop a comprehensive communications effort as part of the 
        overall marketing campaign that reaches impacted countries, 
        giving specific detailed information regarding the process for 
        application and approval.

  <bullet> Consider developing an international registered traveler 
        program. Other countries have developed IRT programs that work 
        to ensure security and allow for focusing attention on lesser 
        known travelers. A good example for Alaska is with Japan and 
        the business traveler volume for commercial fishing related 
        business.

  <bullet> Expand the Visa Waiver Program to additional countries 
        ``friendly'' to the U.S.A. such as Korea.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                             David Borlaug
    Question. From your perspective, what are the three major obstacles 
to international visitors coming to the U.S. that we could address in 
legislation?
    Answer.

        1. America's image problem.

        2. Border/port of entry issues for travelers.

        3. Lack of coordinated promotion effort.

    I believe that following the recommendations of the Discover 
America Partnership, forming an independent, yet federally-chartered 
entity funded by an exit fee assessed against all outbound flights will 
get us back on track with both the first and third issues.
    The way we treat our visitors is something. that needs to be 
addressed with the various government agencies involved, and the 
spotlight you have brought to this issue with these hearings is a good 
start.
                                 ______
                                 
  Response to Written Question Submitted by Hon. Daniel K. Inouye to 
                              Chad Prosser
    Question. From your perspective, what are the three major obstacles 
to international visitors coming to the U.S. that we could address in 
legislation?
    Answer.
    1. Establish a nationally-coordinated program to communicate to 
international audiences that the United States is open to legitimate 
international business and leisure travelers and welcomes their travel 
business.
    This program should:

  <bullet> Communicate to international consumers the improvements that 
        are being made in our country's entry process.

  <bullet> Promote an umbrella brand for the United States based on 
        those common elements that make our country and culture 
        distinct. Special emphasis should be placed on conveying the 
        diversity of product and scenery that are available within the 
        United States. This is particularly important to smaller states 
        such as South Carolina, which is a secondary market for most 
        international travelers; but which has many niche products of 
        interest to international visitors.

  <bullet> Be a public/private partnership that maximizes the impact of 
        limited funds for international marketing from Federal, state 
        and local governments, as well as, private-sector sources. 
        Federal appropriations for this program should come from a 
        dedicated, recurring revenue source so that the program can 
        execute a consistent and effective strategy over the long term.

  <bullet> Be planned and managed by an oversight board comprised of 
        travel industry professionals representing the diversity of the 
        travel industry, including travel service providers, state and 
        local tourism offices, and the small businesses that comprise 
        the bulk of the U.S. tourism industry.

    2. Raise the profile of the travel and tourism industry within our 
Federal Government in order to provide improved public-sector 
leadership and enhanced coordination among Federal agencies, and with 
international organizations that impact the travel and tourism 
industry.

  <bullet> In most countries, Tourism is the primary portfolio of a 
        ministerial or cabinet-level official. Many U.S. states, 
        including South Carolina, also have a cabinet-level officer 
        with primary responsibility for tourism. Currently, tourism is 
        a small part of a portfolio overseen by a Deputy Assistant 
        Secretary who also has responsibility for many other unrelated 
        industries. I suggest that a new position be created within the 
        Department of Commerce at the Under Secretary level to 
        represent the needs of the travel and tourism industry. This 
        position could be created by reallocating existing staff and 
        resources. However, by its elevated status, the new position 
        would ensure that the travel and tourism industry is properly 
        represented within the Federal Government and externally with 
        the industry, international organizations and foreign 
        governments.

  <bullet> Federal Government support of the travel and tourism 
        industry should focus primarily on policy, research and 
        industry liaison.

    3. Create an effective system for tracking international visitors 
to the United States.

  <bullet> This critical information is needed to develop market 
        intelligence about the preferences and activities of 
        international visitors.

  <bullet> Current travel and tourism statistical programs were 
        designed decades ago for the sole purpose of providing balance 
        of trade information. Since that time, international travelers 
        to the U.S. have become an important part of the economies of 
        individual states. Sample sizes in the current system do not 
        give reliable figures on international visitors to individual 
        states, particularly smaller states. This information is needed 
        by states, destinations and the private sector for business 
        planning, benchmarking and accountability purposes. Legislation 
        that improves the collection and sharing of more detailed 
        international visitation data would provide secondary ports of 
        entry with sufficient data to perform meaningful analysis.

  <bullet> The Federal Government must coordinate data collection on 
        international visitors.

                                  <all>

</pre></body></html>
